<html>
<title> - CALL TO ACTION: VA OUTREACH AND COMMUNITY PARTNERSHIPS</title>
<body><pre>[Senate Hearing 113-39]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 113-39

         CALL TO ACTION: VA OUTREACH AND COMMUNITY PARTNERSHIPS

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 24, 2013

                               __________

       Printed for the use of the Committee on Veterans' Affairs





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




         Available via the World Wide Web: http://www.fdsys.gov





                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

80-663 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                     COMMITTEE ON VETERANS' AFFAIRS

                 Bernard Sanders, (I) Vermont, Chairman
John D. Rockefeller IV, West         Richard Burr, North Carolina, 
    Virginia                             Ranking Member
Patty Murray, Washington             Johnny Isakson, Georgia
Sherrod Brown, Ohio                  Mike Johanns, Nebraska
Jon Tester, Montana                  Jerry Moran, Kansas
Mark Begich, Alaska                  John Boozman, Arkansas
Richard Blumenthal, Connecticut      Dean Heller, Nevada
Mazie Hirono, Hawaii
                    Steve Robertson, Staff Director
                 Lupe Wissel, Republican Staff Director










                            C O N T E N T S

                              ----------                              

                             April 24, 2013
                                SENATORS

                                                                   Page
Sanders, Hon. Bernard, Chairman, U.S. Senator from Vermont.......     1
Burr, Hon. Richard, Ranking Member, U.S. Senator from North 
  Carolina.......................................................     2
Tester, Hon. Jon, U.S. Senator from Montana......................     4
Brown, Hon. Sherrod, U.S. Senator from Ohio......................     4
Blumenthal, Hon. Richard, U.S. Senator from Connecticut..........    54

                               WITNESSES

Sowers, Tommy, Ph.D., Assistant Secretary for Public and 
  Intergovernmental Affairs, U.S. Department of Veterans Affairs.     6
    Prepared statement...........................................     8
    Response to request arising during the hearing by Hon. 
      Richard Burr............................................... 16,17
Spencer, Wendy, Chief Executive Officer of the Corporation for 
  National and Community Service.................................    21
    Prepared statement...........................................    23
Nee, Coleman, Department of Veterans' Services, The Commonwealth 
  of Massachusetts...............................................    34
    Prepared statement...........................................    36
Monroe, Mike, Vice President of Military Initiatives, Point of 
  Light..........................................................    38
    Prepared statement...........................................    40
Weingartner, Eric, Managing Director, Survival and Veterans, 
  Robin Hood Foundation..........................................    43
    Prepared statement...........................................    45

                                APPENDIX

Caraway, Martin, Legislative Chair, National Association of 
  County Veterans Service Officers; prepared statement...........    57
Brown, Sherri L., Senior Vice President, Service to the Armed 
  Forces, American Red Cross; prepared statement.................    58
Haynie, J. Michael, Executive Director, Institute for Veterans 
  and Military Families, Syracuse University; prepared statement.    62
Sutherland, David W., Colonel, U.S. Army (Retired), Chairman and 
  Co-Founder of Staff Sergeant Donnie D. Dixon Center for 
  Military and Veterans Community Services (Dixon Center); 
  prepared statement.............................................    66
Melmed, Matthew E., Executive Director, Zero To Three: National 
  Center for Infants, Toddlers, and Families; prepared statement.    73

 
         CALL TO ACTION: VA OUTREACH AND COMMUNITY PARTNERSHIPS

                              ----------                              


                       WEDNESDAY, APRIL 24, 2013

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:02 a.m., in 
room 418, Russell Senate Office Building, Hon. Bernard Sanders, 
Chairman of the Committee, presiding.
    Present: Senators Sanders, Brown, Tester, Blumenthal and 
Burr.

          OPENING STATEMENT OF HON. BERNARD SANDERS, 
              CHAIRMAN, U.S. SENATOR FROM VERMONT

    Chairman Sanders. Chairman Sanders. Good morning and thank 
you for coming to what I think is going to be a very 
informative and important hearing on how the VA and other 
organizations that work with the VA do outreach.
    Before I begin with the substance of this hearing, I do 
want to make a statement, and that is to point out to Dr. 
Sowers and to the VA that it is completely unacceptable, with 
the vast resources of the VA, that they were incapable of 
submitting their testimony to this Committee on time.
    It is disrespectful. We, the Committee, by rule is supposed 
to receive testimony in advance of the hearing so we can absorb 
it and learn from it. Testimony came in late. This is the 
second time since I have been chair that this has happened.
    I just want to make the VA aware that I will not allow this 
to continue. I do not think it is too much for this Committee 
to get testimony on time so staff and Members have an 
opportunity to adequately understand its contents.
    Now, on to the substance of this hearing. There was a 
survey in October 2010 that indicated nearly 60 percent of 
veterans did not understand or were not fully aware of the 
benefits available to them.
    I happen to think that in many areas the VA does enormously 
good work and important work. I was just in the VA center in 
White River Junction on Saturday and looked at a program that 
is literally saving many lives.
    But no matter how good the programs are that the VA has, no 
matter how good its variety of health care programs may be, or 
what they are doing in homelessness or many other areas, it 
does not mean anything to the veteran if that veteran does not 
know about it.
    We have 22 million veterans in this country. Some of them 
do not want to access the VA and that is fine. But I do think 
it is our job to do as much as we possibly can to make sure 
that every veteran in America has the information they need to 
make the choice, to understand what the VA is offering so they 
can say, ``No, I do not want to access it,'' or, ``Wow, I 
really did not know that. This is terribly important to my 
family.'' ``I did not know about this educational opportunity. 
I did not know about this health care program.''
    So, the truth is also that we are in the 21st Century. We 
have computers and email and social media; and while I think we 
can say historically, the VA has not done a terribly good job 
in outreach, I think what we can also say in fairness to the VA 
in the last few years we have seen a significant turnaround.
    I got involved in this issue because about 10 years ago in 
the State of Vermont, I was not impressed about how few Vermont 
veterans knew about VA programs.
    I went around the State with VA and we had hundreds and 
hundreds of people coming out to these meetings, saying, ``Oh, 
I did not know that I am entitled to that. I did not know what 
the VA has to offer in terms of low cost prescription drugs. I 
did not know how I can access that.''
    So, the bad news is, historically, the VA has not done a 
particularly good job in outreach. The good news is that we 
have seen some significant turnaround. Nobody who looks at VA's 
Web site today could deny that it is a lot better than it was a 
year ago and that VA is making progress on other fronts as 
well.
    We are here today to learn from the VA how they are 
communicating with veterans, some of whom are in desperate need 
of VA programs but do not know about them.
    A particular problem is with older veterans--Korea, 
Vietnam, folks--who do not necessarily feel comfortable on the 
internet. How are we reaching out to those veterans?
    There is a lot to discuss and I look forward not only to 
hearing from Dr. Sowers but to hearing from our wonderful panel 
that will follow him and talk about the very good work they are 
doing independent of the VA.
    Senator Burr.

        STATEMENT OF HON. RICHARD BURR, RANKING MEMBER, 
                U.S. SENATOR FROM NORTH CAROLINA

    Senator Burr. Thank you, Mr. Chairman.
    I will not cover the same thing that Chairman Sanders 
covered as it related to the timeliness of your remarks; but 
whatever the Chairman chooses to do, I will back him fully. I 
think that the Committee deserves better from the VA including 
a pledge to the Chairman to work in whatever fashion to make 
sure that this practice--I say practice because it is not an 
isolated incident--stops.
    Mr. Chairman, thank you for this important hearing that 
will focus on the outreach of VA and how community-based 
organizations can help veterans access services.
    I would like to also take this opportunity to welcome all 
of our witnesses today. Before I talk about the importance of 
leveraging community assets that can help identify veterans in 
need or help veterans find needed assistance locally, I would 
like to touch on the VA's current outreach efforts.
    During both the fiscal years 2012 and 2013 budget hearings, 
I asked the VA to provide information on the amount of money 
enterprise-wide that VA spent on outreach activities as well as 
what matrix it uses to determine the effectiveness of its 
outreach initiatives.
    In response to my questions for fiscal year 2012, the VA's 
Office of Public and Intergovernmental Affairs, or OPIA, 
indicated that it had previously stood up the National 
Veterans' Outreach Office, which was tasked with tracking costs 
associated with outreach activities, providing training to VA 
to outreach personnel, and evaluating and developing metrics to 
measure effectiveness.
    They stated that they hoped they would be able to provide 
the cost information within the next year. A year later, in 
pre-hearing questions for the 2013 budget hearing, I again 
asked VA for information on the amount of money spent on 
outreach. VA provided the Committee with information showing 
that from fiscal year 2009 to 2013, VA had spent a total of 
$83.7 million on outreach.
    Although this amount only included an estimate on the 
spending of 2013, I was pleased that VA had begun to account 
for the money being spent. I was hopeful that this was the 
first step toward Public and Intergovernmental Affairs Office 
and NVO undertaking the needed process of coordinating VA 
outreach as well as determining which programs were effective 
in assisting veterans and which were not. Unfortunately, this 
has not happened.
    It is my understanding that from March until August of last 
year, NVO was without a director. Only in August 2012 was a 
full-time director hired to run NVO and oversee all the VA 
outreach activities.
    To make matters worse, the previous director was on 
temporary assignment, meaning NVO had been without full-time 
leadership for over a year.
    Because of this, VA has no enterprise-wide metrics to 
determine whether outreach is effective and is unable in the 
short term to provide the Committee with updated cost 
information.
    Mr. Sowers, VA is a large department and I understand 
individual medical centers, regional offices, and programmatic 
offices are largely responsible for their own outreach 
activities. However, NVO under your office has been charged 
with coordinating outreach, and I believe this should be a real 
priority for you: to ensure that NVO is meeting its assigned 
task.
    There are veterans in need of services and it is vital that 
VA effectively reach out to them to ensure that they are aware 
of the health care and benefit assistance that is available.
    If VA is unable to quantify their current outreach efforts, 
I believe it calls into question whether any future outreach 
will be duplicative or will have the desired outcome.
    Turning to the second panel, I am interested in hearing 
more on how we can leverage existing community assets to reach 
veterans in need. As I have discussed in previous Committee 
hearings, private-public partnerships in the context of mental 
health care is a great way to ensure that veterans get the care 
they earned and deserve.
    By using a similar model for outreach, veterans will be 
better placed to find programs offered by local governments and 
non-profits that can best meet their needs.
    Finally, I hope to learn more about the existing community 
integration initiatives, whether there are any best practices 
that can be expanded nationally, and if there are ways to 
partner with the VA.
    Veterans live in both rural and urban areas, and VA 
resources may not be available close to where they live. 
However, almost every community in this country has a network 
of veterans, businesses, or non-profits willing to help in the 
efforts which can be coordinated in a meaningful way.
    I look forward to the testimony today and I thank the 
Chair.
    Chairman Sanders. Thank you, Senator Burr.
    Senator Tester.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you, Mr. Chairman, Ranking Member 
Burr, Mr. Sowers, and the witness that are to come yet.
    We are at a time when agencies are attempting to do more 
with less. So, it only makes sense to work more collaboratively 
with partners, to better utilize all the tools that are at our 
disposal.
    That means building partnerships with other Federal 
agencies to ensure the we are working as efficiently and 
productively as possible. It also means jurisdictional issues 
and duplication of effort that impede progress. It also means 
that we need to explore and build stronger partnerships with 
local partners, non-profits, and the private sector.
    We have a lot of challenges addressing the needs of our 
veterans and we have got a lot of folks out there that are 
willing to help. We have got to the folks who are willing to 
help better engaged in the process. I think that is why you are 
here and the next panel is here.
    So, I think that if we coordinate better, we can reach that 
common goal of serving our veterans better, and that is the 
bottom line.
    Thank you, Mr. Chairman.
    Chairman Sanders. Senator Brown.

                STATEMENT OF HON. SHERROD BROWN,
                     U.S. SENATOR FROM OHIO

    Senator Brown. Thank you, Mr. Chairman.
    Thank you, Mr. Sowers, for joining us, and I appreciate the 
comments of Senator Burr and Senator Tester.
    A comment to our Nation's veterans begins at outreach 
before ending the backlog, before quality of care, before 
ending homelessness. Our efforts will fall short if we are not 
reaching every veteran. That obviously almost goes without 
saying.
    I appreciate the Chairman holding a hearing on this 
important issue. And outreach cannot be solely a VA issue. It 
has to be the responsibility of all of us. I have done a series 
of events around Ohio promoting VRAP for the last several 
months.
    People in my State in many cases are not aware of it. They 
have benefited greatly from it, those who have signed up. We 
know that is replicated in State after State.
    The Ohio Department of Veterans' Services estimated it has 
contract information for more than 450,000 of Ohio's veterans. 
Yet VA estimates that Ohio actually is the home some 875,000 
veterans. Not all of those accounted for may qualify for 
benefits. Some of those veterans surely would not.
    We know from experience that many do: from burial expenses 
to education to health care. So, it is more than just the 
benefits of VA. The veterans we are not reaching are also 
missing out on a wide network of Veterans Service 
Organizations.
    We know that people come home after serving in Iraq or 
Afghanistan, do not connect with the local VA in either the 
veterans service office, which Ohio has in each of the 88 
counties, or the Veterans Service Organizations.
    Outreach is not a one-size-fits-all endeavor. I have held a 
series of field hearings in Appalachia in southeast Ohio. I was 
taken by the dean of Ohio University's eastern campus who said, 
``Many Appalachian veterans or families never seek help. They 
do the best they can through self-help. This is oftentimes not 
enough for those encountering depression, anxiety, or post 
traumatic stress due to their previous combat experience.
    ``If we are to effectively help Appalachian veterans and 
their families, we will need to educate them and the public 
about the impact of the combat experience on these veterans. We 
will need to implement aggressive outreach programs informing 
veterans about the services that are available to them.''
    He was speaking specifically of Appalachian veterans but we 
know anecdotally that that is far too common for veterans all 
over the country.
    So, we spend a lot of time investing in the VA. We spend 
money giving VA resources. These investments do not mean a 
whole lot if we have not reached out as well as we should to 
the people who served our country.
    So, Mr. Sowers, thank you.
    Thank you, Mr. Chairman.
    Chairman Sanders. Let me just ask this if I might. Mr. 
Burr, would you say, in general, in North Carolina is the 
average veteran aware of his or her benefits?
    Senator Burr. Mr. Chairman, let me say that North Carolina 
may be a unique State simply because of the military footprint 
that is there and the fact that we are the fastest growing 
veterans population in the country.
    So, I think our veterans are pretty aware. It is probably 
not through the outreach programs of the VA. It is more the 
size of the infrastructure.
    Chairman Sanders. Jon, what do you think in Montana?
    Senator Tester. I think it depends on what conflict they 
were involved in. I can tell you there are a lot of vets that 
were turned down for service years ago. They quite frankly do 
not know that they can come back and try again, because we have 
changed the rules of the game.
    So, that is a challenge.
    I think that the VSOs--if the VA was able to utilize them 
and if the VSOs could get recruitment to members involved in 
the different organizations, it could really help the VA get 
their education out. It is very difficult.
    I mean, I will just tell you. I had a meeting when I first 
got on this Committee and there was a veteran that came in to 
the meeting we had and he says, I just came out of the woods, 
and it was not a figurative statement. He literally just came 
out of the woods, and he had been there since the Vietnam 
conflict.
    Chairman Sanders. Sherrod.
    Senator Brown. Yes, briefly. I go back to my dad. My dad 
was a World War II vet, and he hardly ever talked about it like 
many in that generation. One of the things I most appreciate 
about being on this Committee is to encourage older vets, World 
War II vets, whether they are making the visits to Washington, 
to see the veterans memorial or at a veterans' organization in 
Chillicothe to get them to tell their stories.
    I think that sort of reluctance to speak out is also--
generally they are not particularly aware of this--it is a 
pretty self-reliant group of people. I also think the military 
so often does not really give them any guidance when they leave 
the Armed Forces and come back to this country.
    They do not tell them much about how you can go to 
Youngstown State in a special program for combat veterans or 
how you can connect with the local community-based outpatient 
clinic. The military needs to do better. I think we need to do 
better. I think our culture needs to do better with this.
    Chairman Sanders. Thank you.
    Dr. Sowers, the mic is yours.

   STATEMENT OF TOMMY SOWERS, Ph.D., ASSISTANT SECRETARY FOR 
   PUBLIC AND INTERGOVERNMENTAL AFFAIRS, U.S. DEPARTMENT OF 
                        VETERANS AFFAIRS

    Mr. Sowers. Chairman Sanders, Ranking Member Burr, and 
distinguished Members of the Committee, on behalf of Secretary 
Shinseki and the employees at the VA, I am honored to be here 
this morning to update you on the Department's outreach. I 
would like to briefly explain where we are, the situation, and 
where we are headed.
    Chairman, as you mentioned, there are more than 22 million 
veterans in the United States, yet less than half currently 
access the VA. In addition, the 2010 survey that you referenced 
said that 60 percent of veterans knew either very little or 
nothing at all about their VA benefits.
    I used to be one of the 60 percent. While on active duty in 
the military, the military had my full attention. Upon leaving 
the Army, I learned what many other veterans already know, that 
while service made me strong, the VA can make me stronger.
    Because of the VA, I was able to file and receive a claim, 
earn my doctorate, thanks to the Post-9/11 GI Bill, and I get 
first-rate health care at VA facilities. I know firsthand the 
impact of awareness of these benefits.
    From early in his tenure, Secretary Shinseki identified 
increasing veterans access as one of his top three priorities, 
and today we can see our outreach efforts making a difference.
    Accessing health care has never been simpler. Across the 
country, Iraq and Afghanistan veterans are utilizing VA health 
care at a rate greater than any previous generation, including 
an unprecedented increase in the number of women receiving care 
at the VA.
    Education and compensation benefits have been never been 
greater. I and about a million other veterans and family 
members have gone back to school on the Post-9/11 GI Bill. In 
the last few years, we have added about a million more to our 
compensation rolls.
    But in the Special Forces, I learned you cannot accomplish 
a mission alone. You have got to work by, with, and through 
others in order to get it done. The Secretary and I both meet 
regularly with non-profits, for-profits, and veterans service 
and advocacy organizations.
    Following my comments this morning, we will hear from a few 
of the over 10,000 organizations committed to making a 
difference in the lives of veterans and their families.
    Mike Monroe of Point of Light works closely with our 
caregiver initiative and our benefits administration to find 
ways to increase economic opportunities for veterans.
    In New York City, Eric Weingartner of the Robin Hood 
Foundation helps veterans and families in poverty complementing 
our aggressive homeless outreach, and our medical centers 
collaborate with volunteers through Wendy Spencer at the 
Corporation for National and Community Service.
    We have also greatly expanded our outreach to State and 
local governments. Last year the VA signed a memorandum of 
understanding with the National Association of State Directors 
of Veterans Affairs.
    Massachusetts' veterans leader, Coleman Nee, does great 
work from connecting our homeless prevention efforts with local 
leaders to helping veterans get the training and certifications 
they need to get good jobs.
    And last week in Boston, VA medical staff worked closely 
with Coleman and other State officials to respond to those 
events, connecting the victims with our experience with 
dealing, assessing, and recovering from trauma.
    Tomorrow, VA is deploying three mobile Vet Centers 
throughout the greater Boston area to assist local authorities 
with counseling those affected by the attack, and we will be 
there for those injured while they recover, helping them re-
define their mission. For decades we have challenged and 
inspired our injured veterans through our rehabilitative sports 
programs.
    I could continue to tell you about where we are from our 
Web site, from Make the Connection Campaign to our involvement 
with think tanks to our expanded social media presence. But I 
know all good messages are delivered succinctly. So, I look 
forward to saying more during the question portion.
    What I am really excited about today is where we are headed 
tomorrow. Immediately after my arrival last August, we 
evaluated our current outreach and initiated planning to launch 
a new campaign called VA Access.
    VA Access is a multi-year communication and outreach effort 
involving our three administrations and VA staff offices. We 
have incorporated best practices from the private sector, 
built-in strategic and tactical objectives, set milestones, and 
established quantifiable metrics to measure our performance.
    The central method we use to measure our success is by the 
number of new customers, in our case veterans, accessing the 
system.
    VA Access is built around VA's first ever national 
advertising campaign. We partnered with the Ad Council and are 
excited to work with the renowned and award-winning advertising 
firm DDB on a pro bono basis. We are learning about our 
customers with extensive quantitative and qualitative research; 
and kicking off in the weeks prior to Veterans' Day this year, 
you will start seeing our coordinated campaign on TV, radio, 
billboards and magazines.
    That is our perspective on the situation, where we are and 
where we are going. VA deeply appreciates the continued support 
of this Committee.
    On a personal level, I am deeply honored to represent my 
fellow veterans and help them access the services and benefits 
they have earned.
    Thank you. I look forward to your questions.
    [The prepared statement of Mr. Sowers follows:]
  Prepared Statement of Tommy Sowers, Ph.D., Assistant Secretary for 
   Public and Intergovernmental Affairs, U.S. Department of Veterans 
                                Affairs
    Good morning. Chairman Sanders, Senator Burr and distinguished 
Members of the Senate Veterans' Affairs Committee. Thank you for the 
opportunity today to discuss the Department's outreach efforts, our 
approach and major accomplishments, along with emerging initiatives and 
the way forward. I will highlight successful programs we have already 
conducted and other programs we will be conducting in the coming weeks, 
months and year. One important theme of our outreach strategy is the 
importance of national and local partnerships, which are essential to 
reach Veterans and their families.
    VA's three Administrations--Veterans Benefits Administration, 
Veterans Health Administration, and National Cemetery Administration--
and our central office are working closer than ever to plan, coordinate 
and integrate meaningful outreach activities across the Department. The 
2012 Biennial Report to Congress, submitted earlier today, outlines the 
outreach activities of the Department.
                                overview
    Since Secretary Eric K. Shinseki arrived in VA in January 2009, 
everything the VA does, including outreach activities is driven by a 
framework based on three fundamental principles; people-centric, 
results-oriented, and forward-looking.

    <bullet> People-Centric: Veterans remain the centerpiece of our 
effort. As it pertains to outreach, this means VA must address 
Veterans' changing needs over time and develop strategies that 
effectively communicates how VA is meeting the needs of Veterans.
    <bullet> Results-Oriented: The real measurement of VA's success is 
the timeliness, quality and consistency of the benefits and services we 
provide to Veterans and other beneficiaries.
    <bullet> Forward-Looking: Seek opportunities for delivering the 
best services with available resources, continuing to do things smarter 
and more effectively. VA outreach efforts must leverage the latest 
technology to reach today's Veterans and future Veterans. Future 
outreach and services must take into consideration the changing Veteran 
landscape.

    VA's approach to outreach is built on three pillars: (1) outreach 
efforts will be centrally planned with decentralized execution; (2) VA 
will leverage technology to the maximum extent possible; and (3) VA 
will maximize partnerships to achieve optimal results.
    On a daily basis, the National Veterans Outreach Office (NVO), 
aligned under the Office of Public and Intergovernmental Affairs 
(OPIA), provides strategic oversight over VA's outreach efforts and 
ensures the above three pillars are applied throughout the Department.
    To accomplish our important outreach mission, and among many other 
supporting efforts, VA is increasing the speed, accuracy, and 
efficiency of on-line information available to Veterans, 
Servicemembers, and eligible beneficiaries. The good news is our 
outreach efforts are making a difference in the lives of Veterans.
    The Post-9/11 generation of Veterans is using VA benefits and 
services at higher rates than any previous group in Veterans in 
history. Iraq and Afghanistan combat Veterans are eligible, within 5 
years from the date of their discharge or release from active duty, for 
up to five years of free health care. Over 55 percent of returning Iraq 
and Afghanistan Veterans are utilizing VA health care today.
    Approximately one million Veterans have enrolled in the Post-9/11 
G.I. Bill since its inception. The Post-9/11 GI Bill provides enlisted 
Servicemembers, officers and some family members with up to 36 months 
of benefits, payment of tuition and fees, a stipend for books, and a 
monthly housing allowance. Veterans and other beneficiaries are using 
these benefits to pursue undergraduate degrees, graduate degrees, and 
non-degree-producing technical certification.
    VA has also dramatically expanded its outreach to women Veterans. 
The number of women Veterans using VA health care has increased to 
354,000. VA health care for women includes gender-specific primary care 
such as breast cancer screens; mental health evaluation and assistance 
for issues such as sexual trauma, domestic violence and parenting; and 
specialty care including reproductive health care.
                    increasing awareness and access
    The importance of outreach cannot be overstated. There are more 
than 22 million Veterans in the United States--and based on the most-
recent National Survey of Veterans--less than half are currently 
accessing any VA benefits. In addition, that same survey revealed 
almost 60 percent of Veterans know either ``very little'' or ``nothing 
at all'' about their VA benefits. These statistics present both a 
challenge and an opportunity.
    To address this challenge, VA is also moving to more self-service, 
technology-enabled interactions in order to provide Veterans easier 
access to information and the ability to execute transactions at a time 
and place convenient to the Veteran.
    Closer coordination and synchronization of VA outreach activities 
and efforts has been instrumental in achieving several major 
accomplishments during the past few years:

    <bullet> VA is working closely with State Directors of Veterans 
Affairs to ensure their veterans service officers are properly trained 
to better prepare fully developed claims to reduce processing time.
    <bullet> eBenefits enrollment surpassed the 2.5 million point by 
the end of Fiscal Year 2012--in part due to increased marketing, 
outreach and closer collaboration between VA and Department of Defense 
(DOD).
    <bullet> Veteran's homelessness has decreased more than 17 percent 
since 2009 as VA has intensified our national outreach, public 
communication, public-private partnerships and advocacy work in unison 
to rescue homeless Veterans while simultaneously implementing 
prevention programs.
    <bullet> Veterans Health Administration (VHA) outreach is 
integrated with new construction and health service initiatives to 
better provide access, and serve Veterans as demonstrated through three 
hospital construction projects, including opening a state-of-the art 
hospital in Las Vegas--the first in 17 years.
    <bullet> Since 2009, VA has added 57 new community-based outpatient 
clinics (CBOCs) giving us a total of 840 CBOCs through 2013 and we have 
increased the number of mobile outpatient clinics and mobile Vet 
Centers serving rural Veterans to 81.
    <bullet> For the eleventh consecutive year, the National Cemetery 
Administration (NCA) was rated the top customer service organization in 
the Nation, outperforming major U.S. corporations. According to the 
American Customer Satisfaction Index, in 2012 NCA received the highest 
scores ever attained by a public or private organization.
    <bullet> VA's Mental Health outreach is fully integrated with 
suicide prevention programs to reach Veterans through both traditional 
and social media to build awareness on how to seek VA help and 
assistance.
    <bullet> VHA's ``Make the Connection'' campaign has been highly 
successful in getting Veterans to seek assistance and in saving lives. 
For example, in outreach conducted since November 2011, Web site visits 
have exceeded 2.3 million, more than 5.7 million on-line views, and 3.8 
million impressions on Facebook.
    <bullet> VBA has expanded its outreach to U.S. military Reserve 
Component (Army National Guard, Air National Guard, Marine Reserves, 
etc.) Servicemembers and their families. This outreach effort is 
accomplished through six major initiatives: (1) Demobilization 
Initiative, (2) Individual Ready Reserve Muster, (3) Yellow Ribbon 
Reintegration Program, (4) Post-deployment Health Reassessment, (5) 
Transition Assistance, and (6) OEF/OIF/OND Internet Web page and social 
media.
    <bullet> Since the beginning of combat operations in Afghanistan 
and Iraq, through FY 2012, VA's Vet Centers have engaged 604,194 OEF/
OIF/OND Veterans, 443,841 of whom were outreach contacts seen primarily 
at military demobilization and National Guard and Reserve sites. 
Services include mental health counseling, career counseling and VA 
service and benefits assistance.
    <bullet> Eligible Veterans and family members received Vet Center 
Services at over 89,000 distinct outreach activities and events. These 
services include individual and group counseling, marital and family 
counseling, bereavement counseling, medical and benefits referral and 
employment counseling.

    The Department continues to improve its outreach efforts by 
initiating many new programs such as deploying mobile Vet Centers into 
rural areas, establishing more community based outpatient clinics and 
providing mental health crisis line services; increasing visibility 
through different advertising and marketing campaigns; coordinating 
communication across VA using consistent messaging; and strengthening 
partnerships with other Federal agencies, state, city and local 
governments, Veterans Service Organizations (VSOs), Military Support 
Organizations (MSOs), and other stakeholders who support or assist 
Veterans and their families in accessing VA benefits and services.
                           va access campaign
    Shortly after my arrival in August 2012, we initiated detailed 
planning to launch a new outreach campaign called ``VA Access.'' The 
campaign launched in January 2013. VA Access is a comprehensive 
outreach strategy involving all resources within the Department. Its 
primary objective is to inform Veterans of the care and benefits they 
have earned and how to access them, for example, using the eBenefits 
portal. The campaign is a multi-year effort using both traditional and 
social media communication mediums.
    VA Access is based on a three key principles. First, Veterans learn 
best from other Veterans. Second, sustained outreach empowers Veterans 
and their family members to stay informed of their benefits through 
important stages in their lives. Third, the life of every Veteran--or 
their family members--is improved or enhanced by accessing the Veterans 
benefits they have earned. I will now briefly summarize the major 
components of VA Access.

    ``Pro Bono'' National Advertising Campaign. Our flagship project is 
VA's first-ever national advertising campaign with the New York City-
based Ad Council, which is made possible by pro bono contributions of 
our partners. With our close involvement and oversight, the Ad Council 
and our pro bono partner have conducted extensive research--including 
the use of Veteran focus groups--and will create, produce and 
distribute ads on TV, radio, social media, billboards and magazines.
    We recently completed our quantitative and qualitative research. 
Creative development and review, including field testing, will start in 
May. And the Ads will start running nationally this October.
    The Ad Council program represents huge benefits to taxpayers and 
Veterans by maximizing a cost-efficient marketing and advertising 
program while reaching national Veterans audiences and stakeholders.
    Social Media Enhancements/Efforts. VA also recognizes the 
importance of Social Media to reach our audiences. Our online 
communication presence is now fresh, relevant and Veteran-focused. This 
past October, we totally redesigned our public-facing Web page 
(www.VA.gov). Our new web design is more user friendly, intuitive, and 
features a new look and feel, so Veterans and beneficiaries can better 
navigate content for their specific needs. We are removing redundant, 
outdated and trivial information.
    ``Buddy Program.'' Nearly one in four Federal employees is a 
Veteran. However, as is true with the larger population, many Veterans 
working in the Federal Government may not be aware of VA benefits and 
services available to them. To address this, later this year we will 
launch a new initiative with our Federal Agency partners.
    The objective of our ``Buddy Program'' is to inform Federal 
employees who are Veterans of their benefits, while encouraging them to 
share the information with other Veterans they know.
    Veteran Employment Program Offices and public affairs staff can 
post information about the program on agency intra-net sites--informing 
participants on how they can enroll in eBenefits or learn more about VA 
health care programs, they may be eligible for. We are also 
distributing posters to other Federal agencies to help promote this 
effort.
    Veterans Day. As we look toward November 2013, we see the 
culmination of intensive outreach activities coming together at the 
perfect point in time--Veterans Day. As our Nation pauses to recognize 
and thank Veterans, a positive sentiment focused on Veterans fills the 
air. This presents an incredible opportunity for VA and Veterans groups 
to join together for a unified call to action to increase access to VA.
    As we approach Veterans Day, we are asking VSOs to have ``open 
house'' events and other events focused on getting more Veterans to 
access the benefits and services they have earned. The stage is set and 
we are moving forward.
                     intergovernmental partnerships
    OPIA's Office of Intergovernmental Affairs (IGA) continues to 
implement a broad outreach strategy to ensure VA is communicating and 
coordinating our efforts across all levels of Federal, state and local 
governments.
    Over the last two years IGA has established or strengthened its 
working relationship with the following groups and organizations that 
represent state and local governments or entities:

    <bullet> Governors--National Governors Association (NGA).
    <bullet> National Guard Bureau and the State Adjutant Generals.
    <bullet> State Directors of Veterans Affairs (NASDVA).
    <bullet> State Veterans Home Administrators (NASVH).
    <bullet> Council of State Governments (CSG).
    <bullet> State Legislators (NCSL).
    <bullet> County Elected Officials (NaCo).
    <bullet> County Veteran Service Officers (NACVSO).
    <bullet> Mayors (U.S.C.M.).

    IGA has implemented and routinely participates in the following 
outreach initiatives:

    <bullet> Formal Memorandum of Understanding (MOU) signed by the 
Secretary of VA and the President of NASDVA, furthering VA's commitment 
to coordinating our efforts with our state partners.
    <bullet> Quarterly conference calls with NASDVA to provide VA 
subject matter experts (SMEs) to address VA priority programs and 
initiatives.
    <bullet> Bi-weekly meetings with the Governors' Federal 
Representatives in Washington DC to provide information on VA priority 
programs and initiatives and address VA related issues or concerns.
    <bullet> Weekly meetings with White House Office of 
Intergovernmental Affairs to further coordinate our outreach efforts 
with other Federal agencies with programs impacting Veterans.
    <bullet> Annual Conferences for all state and local organizations 
listed above.
    <bullet> Mid-Winter Conferences for NASDVA and NASVH.
                       tribal government outreach
    In November 2009, President Obama tasked all Federal departments to 
fully implement Executive Order 13175 on ``Consultation and 
Coordination with Indian Tribal Governments.'' VA developed its plan in 
2010, Secretary Shinseki signed VA's Tribal Consultation policy in 
2011, and the VA Office of Tribal Government Relations (OTGR) was 
established in OPIA and staffed in 2011.
    The end result of our efforts is to expand and enhance 
communications between the Department and American Indian/Alaska Native 
(AI/AN) tribal leaders to improve services to AI/AN Veterans.
    Outreach activities undertaken by OTGR include:

    <bullet> Sponsoring outreach booths at approximately five 
conferences hosted by Native American advocacy organizations. VA staff 
gave presentations during conference events and gave updates on VA 
programs for Native American Veterans.
    <bullet> Initiating tribal consultation on programs and services 
offered by the VA's three Administrations. Tribal consultation events 
were held in Washington D.C., Anchorage, AK, Lincoln, NE and Denver, 
CO.
    <bullet> Collaborating on tribal consultation with the Department 
of Health and Human Services/Indian Health Service (IHS) on a draft 
agreement to facilitate VA reimbursement for direct care services 
provided by IHS AI/AN Veterans.
    <bullet> Hosting meetings in Washington, DC; Spokane, WA; Shakopee, 
MN; Albuquerque, NM; Grand Ronde, OR; Norman, OK; and Milwaukee, WI 
with tribal leaders, Veterans and Veteran service providers. 
Collectively, these sessions drew over 1,000 attendees.
    <bullet> Facilitating three listening sessions between VA officials 
and tribal leaders and Veterans in Bismarck, ND, Billings, MT, and 
Albuquerque, NM.
    <bullet> Drafting a resource guide for tribes interested in 
integrating aspects of Veterans Courts into tribal justice systems.
    <bullet> Sponsoring themed outreach materials in 2011 to VHA 
Alaska, focused on outreach to Alaska Native communities within the 
state.
    <bullet> Initiating a bi-weekly electronic newsletter for tribal 
leaders and Veterans in the Midwest.
                       homeless veterans outreach
    In keeping with President Obama's pledge to honor and support our 
Veterans, the Secretary of VA established a VA priority goal of ending 
homelessness among Veterans in 2015. In support of that goal, OPIA's 
Homeless Veterans Initiative Office (HVIO) authored, with input from 
all VA administrations and staff offices, VA's Five-Year Plan to End 
Veteran Homelessness.
    A vital component of VA's strategy to end homelessness among 
Veterans is VA's National Call Center for Homeless Veterans (NCCHV), 
because it serves as the entry portal through which many homeless and 
at- risk Veterans find out about VA homeless services. NCCHV provides 
24/7 access to VA homeless services by phone at 877-4-AID-VET and by 
online chat at www.va.gov/homeless.
    In 2011, HVIO launched a multi-pronged outreach campaign urging 
every citizen to ``Make the Call'' to the NCCHV if they are or know a 
Veteran who is homeless or at risk of homelessness.
    The ``Make the Call'' campaign included the following six elements:

    <bullet> Outreach awareness and information events in 28 targeted 
cities across the country in October 2012 to launch the outreach 
campaign;
    <bullet> Outreach that enlisted assistance from national and local 
organizations that come into contact with Veterans on a daily basis;
    <bullet> Assistance from over 2,300 community partners such as soup 
kitchens, shelters, local government agencies, first responders, and 
faith based organizations to help share information with homeless and 
at risk Veterans about VA resources;
    <bullet> Four web videos that focused on the roles different 
professions (social workers, medical professionals, first responders, 
and legal professionals) can play in connecting Veterans with services 
to prevent or overcome homelessness.

    VA is committed to preventing and ending homelessness among 
Veterans and their families by the end of 2015 and is poised to assist 
homeless and at-risk Veterans in achieving their optimal level of 
functioning and quality of life. Outreach is critical to ensuring the 
goal of ending Veteran homelessness is achieved.
    As a result of VA's outreach campaign focused on homeless Veterans, 
calls to NCCHV increased by 123 percent and VA's media activities 
resulted in over one billion impressions during fiscal year 2012. More 
importantly, VA helped prevent many Veterans from becoming homeless and 
helped many others successfully transition from homelessness to having 
a home and becoming self-sufficient. Today, more Veterans are accessing 
VA homeless services than ever before. Below are a few specific 
measures that reflect the success of VA's homeless Veteran outreach 
activities.

    <bullet> From September 2011 to September 2012, calls to NCCHV rose 
from 36,100 to 80,558. During the same period, there was a 125 percent 
increase in calls from Veterans seeking assistance to NCCHV, evidence 
VA is increasingly reaching its targeted population.
    <bullet> There was a 334 percent increase in calls from Veterans at 
risk of homelessness between fiscal year 2011 to fiscal year 2012.
    <bullet> The media campaign resulted in over 1 billion impressions:

         - Cable television--15 second and 30 second spots: 358,978,000 
        impressions;
         - Out of home--posters, transit shelters, bulletins, bus 
        advertising: 230,000,000 impressions;
         - Radio--15 second and 30 second audio spots: 534,718,000 
        impressions;
         - Online display--banner ads: 100,653,568 impressions/80,000 
        clicks;
         - Online video share--30 second and 60 second audio/video: 
        350,000 video views.
               office of public affairs digital strategy
    Through the Office of Public Affairs, VA will continue to execute a 
digital media strategy that is content focused to provide Veterans and 
other stakeholders relevant and timely information delivered on a 
variety of platforms. Digital content is available through traditional 
va.gov Web sites as well as social media platforms like Facebook, 
Twitter and blogs, and other cutting edge platforms.
    Currently VA's Facebook page has more than 250,000 subscribers, 
which is more than any other cabinet-level agency.
                         rehabilitative sports
    VA plans and executes outreach to our wounded, injured and ill 
Veterans through our rehabilitative adaptive sports programs. In a 
strategic partnership with the U.S. Olympic Committee, VA grant monies 
support both national events and local events in communities where our 
Veterans live. These events not only support rehabilitation, but 
provide VA an opportunity to educate Veterans about other available 
programs, benefits and services that could health and overall quality 
of life. These events also give Veterans opportunities to share 
information and success stories about VA benefits and services with 
other Veterans.
                         strategic partnerships
    Successful Veteran outreach cannot be accomplished by the VA alone. 
Many Veterans Service Organizations (VSOs) and non-profit organizations 
(NPOs) are making a huge difference in the lives of Veterans. The Ad 
Council research underscores the importance of ``Vet-to-Vet'' contact 
and peer influence. Simply put, Veterans trust other Veterans.
    Therefore, sustaining and building relationships with VSO and NPO 
groups is crucial to helping inform Veterans and to enrolling more 
Veterans in VA.
    The Secretary and I both meet quarterly with several VSO 
representatives, and VA is now reaching out more directly to NPOs. In 
those forums, we share information and we are asking the VSOs to help 
us enroll Veterans in concert with their respective Veteran advocacy 
roles
                                summary
    The Department of Veterans Affairs outreach programs focus on 
increased awareness and access of the VA benefits and services earned 
by Veterans and their families. We are working to coordinate and 
integrate outreach efforts across the VA to improve efficiency of 
resources, maximize technology and social media assets, and improving 
cooperation with Veterans Service and Non-profit organizations working 
to assist Veterans and their families every day.

    Mr. Chairman, this concludes my statement. I am pleased to answer 
any questions you or other Members of the Committee may have.

    Chairman Sanders. Thank you very much for your testimony. 
Let me begin with health care. How many veterans now access the 
VA health care system?
    Mr. Sowers. We have 8.9 million enrolled.
    Chairman Sanders. Who are in the program?
    Mr. Sowers. That is correct, Chairman Sanders.
    Chairman Sanders. What is your guess as to how many people 
might be eligible for the program who are not in it?
    Mr. Sowers. Well, there are 22.4 million veterans that are 
out there, Chairman Sanders; and unless they were dishonorably 
discharged, they are eligible for the program, they are 
eligible for health care.
    Chairman Sanders. How many veterans do we think lack any 
health insurance at all?
    Mr. Sowers. That is a good question, Chairman Sanders. I 
will get with VHA to get that precise estimate.
    Chairman Sanders. You would agree with me that your job is 
to make sure that every veteran in America, whether or not he 
or she wants to access VA services, and many do not for 
whatever reason, know what those benefits are.
    Mr. Sowers. That is correct, Chairman Sanders.
    Chairman Sanders. You are dealing with a wide spectrum of 
folks. You are dealing with people who just left Iraq and 
Afghanistan, who are very computer savvy. You are dealing with 
World War II veterans who have never used a computer in their 
lives. You have a whole bunch of universes out there that you 
have to access.
    I am concerned about the older veterans right now, say 
Vietnam vets. Do you suspect that there are many Vietnam vets 
who might have, initially when they returned home from Vietnam, 
had bad experiences with the VA? What is your strategy of 
reaching out to those veterans?
    Mr. Sowers. Chairman Sanders, thank you very much for that 
question. The strategy is multi-faceted. Actually, Vietnam 
veterans is the larger proportion of veterans on FaceBook but 
it is going to require more than FaceBook. It is going to 
require some direct face time as well. Vietnam veterans 
represent the largest cohort with a membership within the 
Veterans Service Organizations.
    So, when I came in, I initiated meetings with the Veterans 
Service Organizations and non-profit leaders. We have got to 
reach these veterans by, with, and through some of these 
partners.
    I will give you one other example. About a hundred hours 
ago I was standing in Wales, Alaska, population 145, looking 
over the frozen Bering Sea. I was standing there with the 
Alaska State Veterans' Affairs Director, the head of our health 
care system, and our local tribal veteran representative.
    In this town of 145, about as rural as you can get, there 
are Vietnam veterans there that, as you said, may not want 
these programs; but once we explained it to them in a face-to-
face way, we got veterans to sign up.
    We need those sorts of interactions to occur in rural 
communities across the country.
    Chairman Sanders. For the Post-9/11 veterans, the VA is now 
providing free health care for the first 5 years upon their 
return. What percentage of those veterans know that?
    Mr. Sowers. Chairman Sanders, what we have seen is that 56 
percent of the 1.5 million Iraq and Afghanistan veterans have 
utilized VA health care. That is historically unprecedented.
    We have historically been around the mid-30s. In terms of 
the Iraq and Afghanistan vets, and what we are finding is that 
Iraq and Afghanistan veterans especially with the Post-9/11 GI 
Bill, have sky-high awareness of this incredible program that 
you all have supported again and again.
    Chairman Sanders. Let me interrupt you for a second. My 
time is running out. So, you think we are doing well. Is that 
because of the TAP program? Has that been important?
    Mr. Sowers. Chairman Sanders, I believe the improvements to 
TAP have made positive contributions to it. When I got out, it 
was more like death by PowerPoint. I have seen the new TAP. It 
is an improvement from what I went through but we have got to 
do more.
    There is a lot of confusion out there between the 
compensation and care, and that is a message that I have been 
working aggressively to get out.
    Chairman Sanders. All right. So, 56 percent does seem to be 
a pretty high number. Do you think we have done a fairly good 
job informing the younger veterans about VA health care and 
that significant numbers of them are taking advantage of that?
    Mr. Sowers. Chairman Sanders, the numbers are historically 
high. I just think we have got to do better. I mean, I have run 
into veterans, smart veterans--one of my buddies is a Rhodes 
Scholar who injured his shoulder in the service and did not yet 
know about the 5 years of free health care.
    So, it is something we have got to continue to work on 
although we are seeing historically high numbers.
    Chairman Sanders. I think you have heard from all of the 
members the importance of working effectively with State, local 
government, and non-profits. Say a few words about what you are 
trying to do in that area.
    Mr. Sowers. Chairman Sanders, it is vitally important and 
within my office is the Office of Intergovernmental Affairs. 
The memorandum of understanding signed with the National 
Association of State Directors of Veterans Affairs is 
absolutely important.
    When I travel around to the States, when I was in Ohio, I 
met with Tom Moe. He told me about the unique, innovative 
programs that they are doing in Ohio. When I was in North 
Carolina, it was Tim Wipperman there who told about the unique 
programs that they are doing there.
    We know that the best solutions are not all coming out of 
DC, that they are at the local level where we are seeing great 
solutions.
    Part of that memorandum of understanding is working with 
that organization to recognize and understand the best 
practices so that we can spread those out across the country.
    Chairman Sanders. OK.
    Senator Burr.
    Senator Burr. Dr. Sowers, welcome. I covered the numbers 
that VA provided for me for the 5-year period, the $83 million. 
However, it is my understanding that NVO and OPIA is currently 
unable to provide the information that I requested which is 
updated cost information and projections as part of the 
questions for the record for the 2014 review.
    Is that true?
    Mr. Sowers. Ranking Member Burr, I will inquire about that, 
the specific question that you asked. I know for our outreach 
efforts we have a specific number that we are tracking for what 
NVO spends on outreach.
    Senator Burr. Let me ask on behalf of the Committee if you 
would provide those numbers for us and as well the metrics that 
you discussed in your opening statement that you have created 
to monitor it.

    [The information requested during the hearing follows:]
Response to Request Arising During the Hearing by Hon. Richard Burr to 
                  U.S. Department of Veterans Affairs
    Question 1. What is the Office of Public and Intergovernmental 
Affairs outreach budget for FY 14?
    Response. The National Veterans Outreach Office outreach budget for 
Fiscal Year 2014 is $4,000,000.00. This amount supports a more 
aggressive VA outreach plan, which includes the first iteration of an 
Ad Council national advertising campaign. These professional 
advertising services will enable the Department to conduct a national 
advertising effort designed to increase awareness among Veterans and 
family members regarding the breadth of services available to them and 
how to access those benefits and services.

    Question 2. What is the metric VA is using to assess the 
effectiveness of VA's outreach campaign?
    Response. The metric established for outreach is new access to one 
or more of VA's programs. Access is defined as a Veteran, family 
member, or a Servicemember who enroll, register, and/or use one or more 
VA benefits and services. The access baseline is the number of unique 
individuals who have accessed VA in FY 2012. New access is defined as 
an individual accessing VA who was not found in the system in FY 2012. 
The data was extracted from VBA, VHA, NCA and VA's e-Benefits portal.
    In order to track and measure VA access, a reporting process was 
established and approved by the VA Chief of Staff in December 2012. On 
a monthly basis, the Veterans Benefits Administration (VBA), Veterans 
Health Administration (VHA), and National Cemetery Administration (NCA) 
provide data within their respective areas of responsibility to the VA 
Office of Policy and Planning (OPP) to process and determine new 
clients accessing VA. The period for tracking and measure new access to 
VA for FY 2013 is October 1, 2012.

    Senator Burr. I would agree with Chairman Sanders that 56 
percent is an awfully good number, and I think it begs us to 
stop and ask, what is different about those separating from the 
current conflicts from the population that is more of a 
traditional VA population, that they might be so much better 
informed about the VA.
    I think probably we could all point to social media as a 
tremendous tool which begs the question, that if we agree that 
it has had a major impact on the ability of veterans to become 
aware of the benefits that are available to them, why all of a 
sudden the departure to a $4.3 million advertising campaign, 
which I sort of look at from a standpoint of it being 
traditional and social media being the 21st Century mode of 
communication?
    Mr. Sowers. Ranking Member Burr, that is a great question. 
I see this as a combined arms campaign. You have got to be in 
the air. You have got to be on the ground. You have got to be 
where the veteran is and the time, tone, medium, and frequency 
that they care about.
    I will give you an example of how we are using social media 
to reach out. The Make the Connection Campaign is a campaign 
that started in June of last year.
    Senator Burr. Make no mistake. Clearly, you are doing 
social media effectively. So, tell me what the theme and what 
your expectations are of a $4.3 million advertising buy.
    Is it to actually increase the reach or is it to be a 
little bit more high-profile relative to the effort?
    Mr. Sowers. Ranking Member Burr, thank you for that 
question. You know, a key thing about this campaign, if you are 
referring to the Ad Council campaign, it works on donated media 
and it works on pro bono work from the advertising firm.
    Some folks, as we heard earlier, they want to receive mail. 
They want to receive things, you know, that they can feel and 
touch. Some folks want to see the messages on TV.
    The great thing about working with the Ad Council and the 
pro bono firm, DDB, is that they bring to us decades of 
research on how to effectively message across a wide variety of 
medium.
    So, it cannot just be social media. That will be part of 
the campaign but it will not be the entire part.
    Senator Burr. So, is there a matrix that has been developed 
to determine whether this effort produces the predicable 
results?
    Mr. Sowers. Ranking Member Burr, the key metric that we are 
using is the number of new customers accessing the VA. After my 
arrival, we started tracking that for the first time, 
enterprise-wide.
    You know, I am a customer of three products of the VA from 
two different Administrations; and so now, on a month-to-month 
basis, we know the number of new customers that are coming into 
the VA.
    This year is the key one, where I can level set and get a 
sense of the exact matrix and how it flows, which months we see 
a higher intake versus others.
    When we kick off this campaign in October, we will have a 
very clear idea with a full year of already counting exactly 
how many folks are coming into the VA.
    Senator Burr. Last question. The initiative the will kick 
off in October. How many, if any, outreach programs were 
terminated and replaced by this program?
    Mr. Sowers. Ranking Member Burr, I can get back to you with 
a distinct answer. I see this as an additive program; but I 
will go back and check the history of it, of exactly what was 
replaced.
    Senator Burr. Since you have taken over, have we terminated 
any outreach programs?
    Mr. Sowers. Ranking Member Burr, I will get back to you on 
the specifics of that.
    Senator Burr. Thank you.
    Thank you, Mr. Chairman.

    [The information requested during the hearing follows:]
Response to Request Arising During the Hearing by Hon. Richard Burr to 
                  U.S. Department of Veterans Affairs
    Question. Have any VA outreach programs been canceled since 
August 2012?
    Response. The Office of Public and Intergovernmental Affairs has 
not canceled any outreach program.

    Chairman Sanders. Senator Tester.
    Senator Tester. Thank you, Mr. Chairman.
    Thank you for your service, Mr. Sowers. Thanks for being 
here today. I want to talk a little bit about partnership with 
volunteers particularly as it applies to rural America.
    I was encouraged to see the vets program which is under the 
Department of Labor and their initiative to provide outreach to 
unemployed veterans in rural area. It is critically important 
that we get a better idea of what services particular veterans 
need to utilize to get back into the work force.
    So, from your perspective, can you speak to any initiatives 
launched by the VA to partner with various community groups to 
expand care or services to rural America?
    Mr. Sowers. Senator Tester, thank you very much for the 
question. As you know, I am a rural vet. I grew up in a town of 
13,000 and there was no VA facility there.
    But what is in my hometown is a VFW post. There is an 
American Legion post. There are a number of VSOs that have 
their boots on the ground in those communities.
    So, what I initiated when I came to VA was, I need to speak 
with the communicators of these organization. So, on a 
quarterly basis we bring these veterans service organizations 
and non-profits in, and we bring them in not just to talk but 
to listen.
    What we did, for example, on the Web site is instead of 
just revealing the Web site and saying, tah-dah, here it is, we 
brought in the VSO and non-profit leaders to ask what do you 
need, how can we do this better, how can we communicate with 
you.
    Rural veterans, we know, are online. So, there is an online 
portion to it, yet there is also an on-the-ground component.
    One thing that has happened in the last few years is the 
expansion of our mobile Vet Centers. I love the Vet Centers. 
They are a phenomenal, low threshold way that people can access 
VA. But the mobile Vet Centers have taken the show on the road.
    Just as we are going to be able to deploy them to Boston 
tomorrow, they predominantly focus on rural areas where we do 
not have a VA facility. It brings counselors; it brings people 
that know about the benefits to that area.
    Senator Tester. I want to talk about something the Chairman 
has been an advocate of for some time now and this is community 
health centers.
    The VA announced steps to partner aggressively with local 
providers such as community mental health centers. OK. But 
there has been, I think, a lack of communication and 
collaboration between the VA and the private providers I talked 
about in the previous hearing, as a matter of fact, to deliver 
care at local access points. It has been an issue for a long 
time.
    What steps can be taken to improve the communication and 
collaboration between the VA and actual local health care 
providers, whether it is mental health or otherwise?
    Mr. Sowers. Senator Tester, thank you for that question. I 
have seen it work in a couple of different ways. One is the 
veterans' crisis line that you may know about. It has 
registered 700,000 calls, 26,000 saves.
    At that center when they receive calls from wherever they 
are coming in, they immediately connect with the local 
providers, whether that is law enforcement, whether that is the 
mental health providers. They connect that call through the VA 
to the local provider.
    The second one is what I just saw in Alaska. Since 
Secretary Shinseki's visit in 2011, we have expanded our 
sharing agreements with local tribal authorities that provide 
health care. So now, both tribal veterans and non-veterans can 
go to a local facility and receive that care instead of having 
to fly to Anchorage.
    Senator Tester. Well, you are the point man on 
intergovernmental affair. Can you talk about conversations that 
are going on within the government between, for instance, you, 
the VA, and Health and Human Services?
    Indian Health is another one. You talked about that just a 
minute ago. Is there a conversation at this level that is being 
bled down to the ground so that the folks on the ground--so you 
can work between agencies?
    Mr. Sowers. Senator Tester, it is a great question. An 
example is the partnership that we have had with the Indian 
Health Services. So, that does not just require the VA to 
communicate out to the veterans but Indian Health Service to 
communicate out to their local providers as well.
    So, we have been at the same table as we are forming the 
policy in partnership and then we both take our lines of 
operations.
    Senator Tester. Anything with HHS, Health and Human 
Services? Any conversations, any partnerships there?
    Mr. Sowers. Senator Tester, right now we are working 
closely with HHS on information about the Affordable Care Act 
to make sure that veterans are informed and understand some of 
the changes that are moving forward.
    Senator Tester. All right. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Sanders. Senator Brown.
    Senator Brown. Thank you, Mr. Chairman.
    Mr. Sowers, on the second panel one of the witnesses said 
in his prepared remarks that there are more than 40,000 
organizations, overwhelmingly non-profits, working with 
veterans. I do not really even know what to recommend on this.
    Is there any effort or thought or are there plans for VA to 
sort of have a registry of them to work with them to try to get 
them--there are some that work cross-purposes. I mean, one 
group I would worry about is the for-profits, some of the for-
profit colleges and university that tend to run up debt for 
students, veterans and non-veterans alike.
    Is there reason for you to manage these or try to manage 
these or is there an ability to do that with all these non-
profits out there, most of whom would generally want to help 
veterans but do not really have much coordination one with the 
other?
    Mr. Sowers. Senator Brown, it is a great question. When I 
was in Ohio with Tom Moe, we had a roundtable meeting with a 
lot of the local providers there. I think it would be very 
challenging for us and I am not sure I would want to manage or 
attempt to manage----
    Senator Brown. I might have used the wrong word. Is there, 
I mean, tell me about the relationships. How do you look at 
many of these 40,000? Is there any coordination or advice you 
give them or anything you can do to sort of make them perform 
better, if that is the case?
    Mr. Sowers. So, Senator Brown, there are a few things that 
we have done on this. One is I have sent periodic outreach to 
Veterans Service Organizations and non-profits to get an 
understanding of the solutions that they are delivering at the 
local level.
    I think a very key set of relationships we formalized is in 
the case of the State veterans' affairs directors and then 
working with the counties and cities as well is working through 
our local veterans' leaders in those communities who know the 
solutions, who know the local providers.
    Part of my interest is to make sure that the great 
solutions that are happening, VetCounts being a perfect example 
which you are doing in Ohio, that the lessons that are being 
learned there are shared.
    So, surfacing those best practices, we are getting those 
right now through the Association of State Directors.
    Senator Brown. OK. Thank you. I mentioned in my opening 
statement about 870,000 veterans in Ohio, not many more than 
half can Ohio State government actually identify by name and 
location and all of that.
    What do you do with States like Ohio? I mean we have 88 
county Veteran Service Organizations. We have, as all of us do, 
many VSOs that are doing terrific work.
    How do we reduce that gap so we know where they are, so the 
State government can communicate with them and let them know of 
the VA education, health care, homeless services--all of those?
    Mr. Sowers. Senator Brown, thank you very much for that 
question. We have got to do that, you know, we cannot manage 
what we cannot measure. And having a clear understanding of 
where the veterans are, what their demographics are, is a key 
to any outreach campaign.
    So, you are going to start seeing some changes through the 
VA's Web site. For example, when you come to it, it is going to 
ask you for your zip code and where you are at. That way we can 
start customizing messages to veterans of specific regions.
    But a key thing I have heard from the States, and we want 
to deliver, is data on who we are tracking and who they are 
tracking and getting a good sharing between the two so that we 
can close that gap.
    Senator Brown. Thank you.
    Thank you, Mr. Chairman.
    Chairman Sanders. Thank you. Let me ask one last question. 
Tell me if I am right on this one. VA standards and eligibility 
requirements often change. If I have 20 percent disability and 
my income is X and next year my income is Y, I may at one point 
be eligible and the next point not be eligible.
    Is that a barrier in terms of access to health care that 
maybe somebody applied and were, at the time ineligible. Then, 
3 years later the standard may have changed. Is that a problem 
for the VA?
    Mr. Sowers. Chairman Sanders, that is a challenge because, 
as you mentioned, there were veterans that maybe left the 
service 20-30 years ago when the VA was an administration and 
not a cabinet level department. It offered different benefits 
and services.
    So, again it is one of the key things of why a campaign 
like VA Access is critical, to ease the ability of saying this 
is what the current benefits are. We want to drive people to 
this site and make the site--we made it more user friendly. We 
want to continue in that trend.
    Chairman Sanders. There is another issue and I wish I had 
the book in front of me. It looks like a huge telephone book. 
But in the State of Vermont, which is a rural State, and 
incomes and cost of living are different in certain parts of 
the State, we have one county next to another county; and your 
income eligibility is different.
    So, if I am earning X dollars in Y county, I might be 
eligible in that county but not another. Does that create 
problems for VA?
    Mr. Sowers. Chairman Sanders, I would say anytime there is 
a change in requirements, there is some messaging that needs to 
go with that. That is why we want to bring in some of the best 
practices of the private sector here.
    Chairman Sanders. In this case, I am not just faulting the 
VA. I am faulting maybe us as well. If people know what they 
are eligible for and are not in all kinds of different levels, 
it might be easier for the average veteran to say, ``yes, I can 
walk in the door,'' rather than having been rejected and never 
coming back again even though he or she may now be eligible.
    That was my point. It was not a criticism of VA. But when I 
see a telephone book for eligible requirements based on 
different incomes in the State of Vermont, frankly it does not 
make a whole lot of sense to me.
    Senator Burr, any other questions?
    Senator Burr. No.
    Chairman Sanders. OK. Dr. Sowers, thank you very much for 
your testimony.
    Mr. Sowers. Thank you.
    Chairman Sanders. We will have the next panel come up 
please.
    Panelists, thank you very much for being with us. I think 
what we all recognize and what we have heard from this 
Committee and from Dr. Sowers is that we cannot do our job or 
the VA cannot do its job unless it is done not only by a strong 
outreach effort by VA but also by private non-profits as well 
and other government agencies. The goal is to bring all of the 
players together and I know all of you without exception have 
been actively involved in that.
    We thank you very much for the work that you have done. We 
want your ideas as to how we can improve upon what we do, how 
we can make the cooperation between the VA and your 
organizations stronger.
    Let us begin. I am delighted to welcome Wendy Spencer, who 
is the Chief Executive Officer of the Corporation for National 
and Community Service. Wendy, thanks very much for being with 
us.

     STATEMENT OF WENDY SPENCER, CHIEF EXECUTIVE OFFICER, 
         CORPORATION FOR NATIONAL AND COMMUNITY SERVICE

    Ms. Spencer. Thank you so much, Chairman Sanders, Ranking 
Member Burr, I appreciate the opportunity to testify today. I 
also want to thank both of you for entrusting me with the honor 
of serving as the CEO of the Corporation for National and 
Community Service. I began about a year ago so I am very 
excited to be in my new role.
    We at CNCS share your commitment to serving our veterans 
and military families. Personally as a wife, a daughter, 
granddaughter, and even a stepmother of men who served in four 
branches of the military, this is very personal to me and it is 
a priority.
    Meeting the needs of our veterans and military families is 
a national challenge. National service, what we do, is an 
innovative, cost-effective, and proven solution to this 
challenge.
    We are a grant-making agency built on public-private 
partnership. Each year we generate an investment of hundreds of 
millions of dollars in private and other outside resources.
    We recruit, mobilize, and manage 80,000 AmeriCorps members, 
330,000 Senior Corps participants, and an additional 4.5 
million community volunteers.
    Through our vast network of grantees and partners, 
dedicated Americans serve in 70,000 locations across the 
Nation. They are in schools, faith- and community-based 
organizations, non-profits, many of which you are familiar with 
like Habitat for Humanity, Points of Light, American Red Cross, 
The American Legion Auxiliary, Catholic Charities, and 
thousands more.
    National servicemembers are taking on some of our Nation's 
most pressing problems, including supporting veterans and the 
military family community.
    Our commitment to veterans and their families is deep and 
it is actually two-fold. We serve them and we ask them to serve 
with us. Those strategies are proving to be tremendously 
beneficial and have great results.
    National servicemembers serve at hundreds of VA clinics and 
hospitals, at Veterans Service Organizations and non-profits. 
They are connecting veterans to job opportunities, helping them 
access their benefits, providing peer counseling, mentoring 
their children, and more. Last year, our program served more 
than 1.5 million veterans and family members in every State in 
the country.
    Veterans themselves also bring unique skills and leadership 
to solve problems at home. National service actually gives our 
veterans a new mission on the home front, a pathway to 
opportunity if you will, and a better transition to civilian 
life.
    Last year, more than 27,000 veterans served in our 
programs. In fact, many of our programs are vets helping fellow 
vets which we find very successful.
    In Washington State, for example, the Governor appointed 
the Commission for National and Community Service and the 
State's Department of Veterans' Affairs to join together in 
2009 to launch an AmeriCorps program called VetCorps.
    VetCorps is made up of veterans or military family members. 
They serve full-time to support veterans enrolled in public 
colleges across the State. In fact, every public college.
    They take their fellow veterans by the hand and assist them 
with every aspect of their transition. Their mission is to 
never leave a veteran behind and to help them succeed in 
college and in life. I am pleased to report that it is working.
    Last year, 31 AmeriCorps members in VetCorps served 7,100 
veterans. Nine out of every ten of these veterans served 
reported to us they had better understanding of how to navigate 
college and use their VA benefits.
    Early results show us that VetCorps members have 
substantially boosted the number of veterans on track to 
graduate from college, a goal that we all share.
    In conclusion, let me tell you about Mike Bremer. Mike is 
an Iraq war veteran who served in AmeriCorps as a member of an 
all-veteran fire team in Colorado. Mike said, and these are his 
words, ``When I returned from Iraq with the Army infantry, I 
felt like I lost all meaning and purpose in life and I had 
trouble finding meaningful work. My AmeriCorps experience gave 
me new purpose and a valuable new skill set. I received 
incredible training and experience through AmeriCorps.''
    I am pleased to share with you today that Mike now has a 
full-time job as a firefighter with the U.S. Forest Service. I 
called Mike yesterday to tell him I was going to share his 
message with you, and he is doing quite well.
    Mike found his new mission and we know what ours is.
    Mr. Chairman, Ranking Member Burr, we are poised, ready, 
committed, dedicated to work with each of you and each Member 
of this Committee and the VA to serve our veterans and their 
families as well as they have served each of us. We hope you 
will consider national service as an important part of the 
solution.
    Thank you for the opportunity to testify today. As a moment 
of privilege, I would like to thank my colleagues here, 
grantees and partners in the room, and especially my senior 
advisor for veterans issues, Koby Langley, who is an Iraq war 
veteran, Bronze Star Recipient, and served as a former Command 
Judge Advocate who is advising me and helping us grow services 
to veterans and the military family.
    Thank you very much.
    [The prepared statement of Ms. Spencer follows:]
     Prepared Statement of Wendy Spencer, Chief Executive Officer, 
         Corporation for National and Community Service (CNCS)
    Chairman Sanders, Ranking Member Burr, and Members of the 
Committee: Thank you for the opportunity to testify today.
    I am Wendy Spencer, Chief Executive Officer (CEO) of the 
Corporation for National and Community Service (CNCS). I have had the 
privilege of serving in this role since April 2012, following my 
nomination by President Obama and unanimous confirmation by the U.S. 
Senate. I thank the Members of this Committee for your faith and 
confidence in me and for this honor you have entrusted to me.
    I have forged my career in volunteer management and administration 
over the past three decades. Prior to this appointment, I served as CEO 
of the Florida Governor's Commission on Volunteerism and Service under 
Governors Bush, Crist, and Scott, and am therefore honored to be the 
first CEO of CNCS to come directly from the national service field. I 
am also honored to be the first in this position to testify before this 
full Committee.
    I was grateful for your invitation and am here today because CNCS 
shares your commitment to serving our veterans and military families. 
As a Nation, we are tasked to meet the needs of the 1.5 million 
servicemembers hanging up their uniforms for the last time and 
transitioning to civilian life in the next five years, as well as the 
military families who have borne so much of the burden during the long 
and protracted years of war.
    The good news I have to report is that Americans have answered the 
call to serve in countless ways to support our military service men and 
women, veterans, and their families. As the Obama Administration's 
Joining Forces initiative makes clear, this is not a challenge for 
government, alone; it is a challenge for all of us who live safer, 
freer, and more secure because of the sacrifice of these heroes. 
National service is an innovative, cost-effective, and proven solution 
to this challenge.
    During my testimony, I will discuss who we are, our commitment to 
our Nation's heroes, and how national service is poised to play an even 
greater role in helping our returning servicemembers and their families 
transition back to civilian life.
        about the corporation for national and community service
    CNCS is a Federal agency that engages millions of Americans in 
service each year through our signature national service programs, 
AmeriCorps and Senior Corps, and innovative programs such as the Social 
Innovation Fund and Volunteer Generation Fund that take community-based 
solutions to scale. We also lead the President's national call to 
service initiative, United We Serve.
    Our programs bring human capital to America's civic infrastructure. 
This includes more than:

    <bullet> 80,000 AmeriCorps members;
    <bullet> 330,000 Senior Corps volunteers; and
    <bullet> 4.5 million community volunteers recruited, managed, and 
mobilized by our national servicemembers and call to service 
initiatives.

    We are unique in that we are a public-private partnership. We work 
with a vast network of grantees and partners to get things done in 
communities across the country. And we generate the investment of 
hundreds of millions in private and non-CNCS funds every year.
    Through our AmeriCorps and Senior Corps programs, dedicated 
citizens of all ages and backgrounds are serving hands-on and in many 
cases full-time at 70,000 locations nationwide, including schools, 
faith- and community-based organizations, state and local public 
agencies, and venerable nonprofits such as Points of Light, Habitat for 
Humanity, American Red Cross, United Way, Catholic Charities, and the 
American Legion Auxiliary.
    Every day, these national servicemembers tackle complex societal 
challenges on the ground, such as helping youth stay on track to 
graduate; fighting poverty; responding to disasters; restoring parks; 
bringing life back to forgotten neighborhoods; and connecting veterans 
and military families to the services they need and the benefits they 
have earned, which is the challenge that unites us here today. It's 
working; we see results of national service each and every day.
    National service is based on the idea that our Nation's greatest 
asset is our citizens. When Americans are civically engaged and 
empowered, no challenge is insurmountable. That is why CNCS is proud to 
lead the Federal effort to support, strengthen, and scale America's 
volunteer sector through national service, and help address some of the 
most pressing issues facing our Nation.
             national and community service commitment to 
                     veterans and military families
    As the Members of this Committee and the witnesses of this panel 
know, one such pressing national issue is meeting the needs of our 
transitioning military and their families. I am the wife, daughter, 
granddaughter, and stepmother of men who have served our country in 
four branches of the military, so this is very personal to me and I 
understand the challenge.
    Further, this generation of American veterans presents new 
challenges which are uniquely served by national servicemembers, 
volunteers, and fellow veterans and military family members.
    The bipartisan Edward M. Kennedy Serve America Act of 2009 (Serve 
America Act) was landmark legislation that focused national service on 
key national priorities, including veterans and military families. In 
the spirit and the letter of the Serve America Act, the CNCS 2011-2015 
Strategic Plan set goals, strategies, and objectives to support the 
veteran and military family community.
    Our commitment to veterans and military families begins in large 
part by who we choose to lead our efforts. In 2011, we chose a two-tour 
combat veteran of Kosovo and Iraq, and the recipient of the Bronze 
Star, Koby Langley, as Senior Advisor for Wounded Warrior, Veteran, and 
Military Family Initiatives at CNCS. Koby has served our country with 
distinction as a public servant in the Army, as a special assistant to 
the Secretary of Veterans Affairs, and most recently as a senior 
executive in the Department of Defense (DOD) where he advised on 
wounded warrior and transition policy, led in the interagency 
development of the Veterans Job Bank, as well as the first ever DOD 
wounded warrior employment initiative. Today, our investments in 
supporting the veteran and military family community have never been 
stronger.
    Our commitment to this community is twofold. We directly serve 
veterans and their families through national service, and we recruit 
and enroll veterans and their families to serve in national service 
programs. We have seen success on both fronts.
Serving Veterans and Military Families Through National Service
    Our AmeriCorps members and Senior Corps volunteers, serving at the 
community level, are the face and helping hands of a grateful Nation. 
These national servicemembers serve at hundreds of Department of 
Veterans (VA) Affairs facilities, including clinics, community centers, 
and 80 hospitals; veteran service organizations; and nonprofits such as 
Blue Star Families and Operation Homefront.
    They perform a wide range of service activities on a daily basis to 
support veterans and their families, including raising awareness of 
benefits among veterans and helping them navigate the application 
process; connecting them to critical wellness and support services such 
as legal assistance, health care, job training, and affordable housing; 
or providing transportation to the nearest VA hospital or other medical 
appointments, to job counseling or interviews, and to take care of 
personal needs by running household errands.
    Examples of our grantees in action include:

    <bullet> Metropolitan Community College in Omaha, Nebraska, which 
utilizes the anti-poverty, capacity-building arm of AmeriCorps--
AmeriCorps VISTA (Volunteers in Service to America)--to help veterans 
and their families transition from a life in the military to a life in 
the classroom. The VISTA members have set up resource guides and a Web 
site specifically for student veterans, compiled a list of faculty 
members with military experience, and facilitated the student veterans' 
transition to the local community through service events such as the 
September 11th National Day of Service and Remembrance.
    <bullet> The city of Raleigh, North Carolina, which places two 
AmeriCorps VISTA members at the Raleigh Business and Technology Center. 
These VISTAs wrote, submitted, and were awarded an $851K grant from the 
North Carolina Department of Transportation and the Workforce 
Development Commission. The grant supports a cross-sector collaboration 
with the largest solar panel company in the state, providing veterans 
access to a 144-hour Solar Electrical Technician Certification Course, 
a Lineman Certification Course, a 200-hour pre-apprentice program, and 
support with transportation and job placements. This partnership is 
creating a pathway to education, green jobs, and transportation 
assistance for approximately 200 veterans.
    <bullet> The LifeBridge Veteran AmeriCorps program in West 
Virginia, which provides peer-to-peer mentoring, life and job skills 
training, information and referral services, as well as financial 
literacy guidance to veterans, homeless individuals, or those at risk 
of becoming homeless. The program has been critical to helping fill 
gaps in resources for the state's veteran population. Last year, 
AmeriCorps members serving in the LifeBridge program drove documented 
increases in job skills among the population they served, recruited 
hundreds of volunteers, and provided direct support services to 200 
members of the veteran and military family community in West Virginia.
    Through these and other programs, last year approximately 1.5 
million veterans and military family members across every state were 
impacted by the service of AmeriCorps members and Senior Corps 
volunteers. Since implementation of the Serve America Act over the past 
three years, CNCS has awarded national service grants to more than 240 
organizations in more than 400 communities across the country to serve 
the veteran and military family community.\1\
---------------------------------------------------------------------------
    \1\ A complete list of veteran and military family-oriented 
grantees supported since 2010 is provided as Appendix A to this 
testimony.
---------------------------------------------------------------------------
    CNCS and our national service programs are developing good ideas, 
promising practices, and effective programs and initiatives that make a 
meaningful difference for veterans and military families and taking 
them to scale. This includes:

    <bullet> The Community Blueprint, which began as collaboration 
between AmeriCorps VISTA members working with the American Legion 
Auxiliary, and has since grown into a multi-state initiative led by our 
grantee, the Points of Light.
    <bullet> Operation Honor Card, which has solicited and documented 
pledges of 25.8 million hours of service by Americans in support of 
veterans and military families. Operation Honor Card is a joint project 
of the CNCS, Blue Star Families, American Red Cross, Points of Light, 
and ServiceNation. With more than 22.4 million of these service hours 
having already been served, Operation Honor Card has raised awareness 
of the strength and challenges of our servicemembers and represents the 
commitment of communities and citizens nationwide who have come 
together to assist veterans and military families by writing letters of 
appreciation, sending care packages, hosting donation drives, 
organizing welcome home events, feeding homeless veterans, tutoring and 
mentoring military children, and much more.
    <bullet> A new partnership with Delaware Governor Jack Markell, 
chairman of the National Governors Association, and the National Guard 
Bureau, which will place AmeriCorps members in Delaware and locations 
across the country as part of Joining Community Forces. The partnership 
will strengthen National Guard support services for guardsmen and their 
families at risk of homelessness, joblessness, or otherwise in need of 
economic stability assistance by providing access to AmeriCorps VISTA 
members for all 54 states and territories. I was proud to join the 
Governor and Senators Carper and Coons last month to announce this 
partnership.
Recruiting and Enrolling Veterans and Military Families in National 
        Service
    National service is also a unique and effective way to tap the 
talent and leadership skills of veterans to solve problems at home.
    More than 17,000 veterans have served in AmeriCorps since its 
inception in 1994. And last year alone, more than 26,000 veterans 
served through Senior Corps. Veterans bring the skills they acquired in 
the service to continue serving on the homefront through AmeriCorps and 
Senior Corps--responding to disasters, building homes, mentoring at-
risk youth, and supporting other veterans and their families.
    Veterans of all ages have demonstrated a desire to serve their 
country both in and out of the service and this continues to be true 
for our youngest generation of veterans. A landmark report by Civic 
Enterprises found that younger veterans are eager to continue serving, 
and that veterans who volunteer have more successful transitions home 
than those who do not.\2\
---------------------------------------------------------------------------
    \2\ All Volunteer Force: From Military to Civilian Service. Civic 
Enterprises. Published November 2009.
---------------------------------------------------------------------------
    This is proven true in national service programs. In a recent VISTA 
member exit survey, 80 percent of members reported that their 
participation in national service helped them reconnect with community 
activities in civilian life.\3\
---------------------------------------------------------------------------
    \3\ VISTA Member Exit Survey: September 2011-November 2012. Survey 
results and testimonials of veterans serving in VISTA are provided as 
Appendix B to this testimony.
---------------------------------------------------------------------------
    Further, our national service field research shows that veterans 
and their families are more likely to accept assistance offered by an 
individual affiliated with the military than a well-intentioned 
civilian,\4\ so this distinctive national service model--Vets helping 
Vets--has seen tremendous success.
---------------------------------------------------------------------------
    \4\ Understanding the Involvement of Veterans and Military Families 
in National Service. A field assessment report prepared for the 
Corporation for National and Community Service by Westat. 
February 2013.
---------------------------------------------------------------------------
    Examples of our grantees in action include:

    <bullet> The Washington state Vet Corps, an innovative program 
launched in 2009 by the Washington Commission for National and 
Community Service and the Washington Department of Veterans Affairs, 
which engages veterans and military family members in AmeriCorps to 
support and boost the graduation rates of student veterans enrolled 
under the Post-9/11 GI Bill. Last year, the 31 members in Washington's 
VetCorps served 7,100 veterans across the state. Nine out of every 10 
(93 percent) of the veterans they served reported that, because of 
VetCorps, they better understand how to use their VA benefits and how 
to navigate the college environment. And early results show that 
VetCorps members have substantially boosted the number of veterans on 
track to graduate from college.
    <bullet> Formative nonprofits serving the veteran community such as 
the Mission Continues, Service Nation, and Team Rubicon, which have 
leveraged national service to expand their service model and to 
highlight veterans as civic assets and leaders in their communities. 
For example, after a 20 year military career, Ernest ``Cal'' Verdin is 
now an AmeriCorps VISTA member serving as a Regional Director of Team 
Rubicon. In response to Hurricane Sandy, Cal led the volunteer 
management efforts in Rockaway, New York, which included approximately 
300 Team Rubicon volunteers and 10,000 community volunteers in recovery 
efforts over a five-week period.
    <bullet> The Community Anti-Drug Coalitions of America (CADCA), 
which in partnership with the National Guard Bureau's Prevention, 
Treatment, and Outreach Program, launched its own VetCorps to fight 
substance abuse, addition, and other challenges facing returning 
veterans. According to the DOD Millennium Cohort Study, 22 percent of 
National Guard members were problem drinkers and 29 percent had 
financial problems. The CADCA VetCorps program places AmeriCorps 
members, particularly military service personnel and veterans, in 
CADCA's substance abuse prevention coalitions throughout the country to 
mitigate these problems. More than 100 AmeriCorps members will deploy 
to support returning guardsmen and reservists as they face behavioral 
health challenges.
    <bullet> The Southwest Conservation Corps, which provides 
opportunities for veterans to serve as team leaders maintaining and 
responding to wild-fires on national lands, and launched an all-
Veterans Fire Corps in 2010. As an AmeriCorps member in the Corps, Mike 
Bremer worked in three districts of the San Juan National Forest and 
for the New Mexico Bureau of Land Management. He showed stellar 
performance and leadership, was recognized nationally as Corps Member 
of the Year, and was promoted to a crew leader--a precursor to his now 
full-time job as a firefighter with the U.S. Forest Service. Mike 
explained, ``When I returned from Iraq with the Army Infantry, I felt 
like I lost all meaning and purpose in life and I had trouble finding 
meaningful work. My Corps experience gave me new purpose and a valuable 
new skillset. I received incredible training and experience alongside 
other veterans who had similar experiences--we were all looking for a 
new life after war.''

    Through these and other programs, national service engages veterans 
and their families in a new mission on the home front.
    Recognizing the unique skills and leadership abilities of America's 
veterans, as well as the benefits of national service to veterans and 
military families, CNCS and our network of grantees have stepped up our 
efforts to recruit these heroes to serve in our programs. We have 
partnered with the U.S. Chamber of Commerce Foundation to participate 
in more than 50 ``Hiring Our Heroes'' job fairs across the country. 
Additionally, a number of AmeriCorps grantees, including Teach for 
America, Volunteers of America, the Washington Conservation Corps, and 
the St. Bernard Project, have launched veteran recruiting efforts for 
their AmeriCorps positions, and in some cases reserved positions 
specifically for veterans.
       national service works for veterans and military families
    National service works for veterans and their families. It is an 
innovative, cost-effective, and proven solution to many of the 
challenges facing our Nation's heroes, from accessing benefits and 
services to utilizing the Post-9/11 GI Bill to reintegrating to 
civilian life.
    As referenced earlier in this testimony, CNCS has provided historic 
levels of support to the military community in recent years. Yet we 
have still not fully realized the potential of national service to meet 
this pressing need. As the Federal agency charged with expanding 
impactful, community-based solutions to serve veterans and military 
families, we are poised to do more to continue and expand our efforts 
to serve and engage veterans.
    CNCS' unique value is a ``triple bottom line'' return on 
investment: National service benefits those who serve, those who are 
served, and the larger community and Nation. We have:

    <bullet> Capability: We are the only Federal agency with access to 
such a vast network of grantees, community-based partners, national 
servicemembers, and volunteers that improve the lives of Americans 
every day.
    <bullet> Authority: The bipartisan Serve America Act gave us the 
authority and expectation to expand services to veteran and military 
families and coordinate activities with the VA and other Federal 
agencies.
    <bullet> Accountability: CNCS is committed to the highest level of 
accountability through oversight of our grantees and national service 
participants, as well as by using performance measures and evaluations 
to ensure that our programs have real and quantifiable impact.
    <bullet> Ability to Leverage Non-Federal Resources: Our grants to 
nonprofits, schools, and other community-based organizations are often 
required to be matched with funding from local, private, and non-CNCS 
partners. And our national servicemembers mobilize millions of 
community volunteers alongside them.

    The success of CNCS and our national servicemembers is beyond 
measure in both the lives of the individuals and communities they serve 
and those who commit to serving. We recognize that servicemembers, 
veterans, and their families face unique challenges and we believe CNCS 
has a cost-effective model efficiently serving many of their needs. We 
also understand there is more to do and know that with a fully funded 
interagency service Corps, we could provide support services to even 
more servicemembers, veterans, and their families. An example of this 
is FEMA Corps, a partnership between CNCS and FEMA that created a 
specialized unit of AmeriCorps National Civilian Community Corps. This 
partnership is projected to save FEMA and taxpayers more than $60 
million per year. Additionally, CNCS and the Department of Education 
launched School Turnaround AmeriCorps to place AmeriCorps members in 
persistently underachieving schools across the country. With these 
models we are in discussions with several Federal agencies--including 
VA--to help them accomplish their mission through national service.
    The CNCS commitment to veterans and military families has never 
been greater, and we stand ready to do more. We look forward to working 
with this Committee, the VA, and other partners across every sector 
that are committed to serving our veterans and their families as well 
as they have served us.
    Again, thank you for the opportunity to testify today.
                                 ______
                                 
  Appendix A.--Nonprofit and State-Based Initiatives Supported by the 
  Corporation for National and Community Service Serving Veterans and 
                           Military Families
American Red Cross Oregon Trail Chapter
WA State Employment Security Department
Vermont Student Assistance Corporation
St. Bernard Project
Lutheran Family Services of Nebraska
AMVETS Career Center
Great Basin Institute
CA Dept. Veterans Affairs
Goodwill Industries of the Southern Rivers, Inc.
Georgia Perimeter College
Spartanburg County, SC School District 7
American Red Cross, St. Joseph County Chapter
Ministry of Caring Inc.
Affordable Housing and Homeless Alliance
Volunteers of America of Illinois
Lessie Bates Davis Neighborhood House
Virginia Department of Veterans Services
The Piney Woods School
Family Services of Butler Memorial Hospital
United Way of Central West Virginia
Arizona Board of Regents OBO N. Arizona University
American Red Cross Southern Arizona Chapter
Waynesville RVI School District
Idaho Department of Labor
Rhode Island School of Design
Iowa Dept. of Natural Resources
Washington County Youth Service Bureau
IHOM LifeCorp AmeriCorps
Utah Conservation Corps
Goodwill Industries of Greater Grand Rapids, Inc.
Tennessee's Community Assistance Corp.
Washington Campus Compact
WestCare Foundation, Inc.
Rebuilding Together, Inc.
Habitat for Humanity International, Inc.
WA State Department of Veterans Affairs
Utah Campus Compact
Public Allies, Inc.
Minnesota Council on Crime and Justice
National Association for Public Interest Law
Community Anti-Drug Coalitions of America
New Sector Alliance, Inc.
American Legion Auxiliary National Headquarters
<bullet> American Red Cross National Headquarters
<bullet> American Red Cross, South Florida Region
<bullet> Big Brothers Big Sisters of America
<bullet> Blue Star Families
<bullet> Give an Hour
<bullet> Madison Street Veterans Association
<bullet> Military Officers Association of America
<bullet> National Military Family Association
<bullet> Operation Homefront
<bullet> Ride 2 Recovery
<bullet> Senior Volunteer Services
<bullet> Still Serving Veterans
<bullet> Student Veterans of America
<bullet> TN Community Assistance Corporation
<bullet> The Mission Continues
<bullet> Veterans Innovation Center

American Red Cross of Greater NY
Billings Metro VISTA Project, city of Billings
Brain Injury Association of Utah
CA Conservation Corps (CCC) Vet Green Corps
CareConnect RSVP
Central Iowa Shelter Services
city of Charleston
city of Houston
Communities In Action VISTA Project
Community Action Association of PA
Community Human Services Corporation
Community Renewal Team
Families in Transition
George Washington University
Georgia 4H Foundation
Habitat for Humanity International
Hands on Volunteer Network of the Valley
HandsOn Greater Phoenix
Idaho National Guard
Legal Aid Society
Maine Commission for Community Service
Maryland Campus Compact
Metropolitan Community College
Military Family Research Institute
Minnesota Campus Compact
Mission Solano Rescue Mission
Montana Legal Services Association
Municipality of Maunabo, Office of VA
National Alliance on Mental Illness--TN
NC Association of Community Development Corporations
New Directions, Inc.
New London Homeless Hospitality Center
North Dakota State University
Ohio Campus Compact/University of Akron
Pathways PA
Prescott College
Prevention Resource Center
Rural Advancement Foundation International
South Carolina Office of Rural Health
St. Stephen's Human Services
Tabor Community Services, Inc.
The American Legion Auxiliary National VISTA Community Anti-Drug 
Coalitions of America
The Service Collaboration of Western NY
United Way of Central Kentucky
United Way of the CSRA, Inc.
University of Arizona
University of Arkansas Cooperative Extension
University of Wisconsin Extension 4-H
Utah National Guard
``Veterans Health Administration''
Volunteer WV--the WV Commission
Volunteers of America, Dakotas
Washington County Youth Service Bureau
Waynesville Public Schools
West Alabama Chapter of American Red Cross
Yakima County--Department of Human Services

Adamsville Lion's Club
Alexian Brother Senior Neighbors
Alexian Brother Senior Neighbors
Alpert Jewish Community Center/American Red Cross, Lowcountry Chapter
Agency on Aging--Bloomington RSVP
Area Agency on Aging: Region 1
city of Miles City (6 RSVP projects)
Athens-Limestone RSVP
Baltimore City
Baltimore County
Black Hills State University
Brooke County Senior Center
Bryan County RSVP
Butler County RSVP
Calcasieu Parish Police Jury RSVP
CareConnect RSVP
Cascade County, District IX HRDCCASE RSVP
CASE RSVP
Catholic Charities of Jackson, Michigan
Catholic Charities of Onondaga County
Catholic Charities of SW Ohio/Cincinnati RSVP
Catholic Charities of the Diocese of Ogdensburg
Cattaraugus County Department of the Aging
Central Vermont Council on Aging
Centre County Commissioners
Cheyenne Housing Authority
city of Alamogordo
city of Albuquerque
city of Jacksonville
city of Kosciusko
city of Mitchell
city of Rapid City
city of Santa Fe RSVP
city of Waveland
Clarksville/Montgomery County CAC
Clinch Valley Community Action
Coahoma Opportunities, Inc.
Coastal Community Action Program
Coles Council County on Aging
Collier County
Columbia River Fire and Rescue
Coming of Age--Bay Area/RSVP of San Francisco and Alameda Counties
Community Service Society
Community Services Council
Conejo Recreation and Park District Connections, Inc.
Cornell Cooperative Extension
Council of the Southern Mountains RSVP
County of Bucks--Area Agency on Aging
Covenant Medical Center
Cumberland County Coordinating Council on Older Adults
Decorah Public Library
Deming Luna County Commission on Aging
DOVE, Inc.
Durham Community Technical College
Dutchess County Community Action Partnership
East Bay Community Action Program
Erie County Department for Senior Services
Experience, Inc.
Family and Community Christian Association
Family Services of Champaign County
Federal Hill House
Four County Mental Health Center RSVP
Friends of Suffolk Co. RSVP/ Suffolk ESVP
Garland County Council on Aging
Harford County RSVP
Highland Community College
Human Services Council
Hutchinson Community College RSVP
Iberia Council on Aging RSVP
INCA RSVP
Interfaith Older Adult Programs
Iowa Lakes Community College
Kauai County Agency on Elderly Affairs
KI BOIS Community Action Foundation, INC.
Klein and Stiffle Jewish Community Centers
Lake County CAP
Land-of-Sky Regional Council
Lawton RSVP
Lincoln/Kit Carson County RSVP
Lorain County Office on Aging
Louisville-Jefferson Co Metro
Lower Eastern Shore RSVP
Lowndes County Council on Aging, Inc.
Luzerne/Wyoming Counties' Bureau For Aging
McLennan County Community College
Mesa County RSVP
Mid-Florida Community Services
Montgomery County
Mountain States Group, Inc.
New Castle County RSVP
New Hanover County
North Coast Opportunities
North Dakota State University
North Iowa Area Community College
Northern Arizona University
Olympic Community Action Program
Osceola Co. Council on Aging
Paducah-McCracken County Senior Citizens
Pennyrile Allied Community Services
Philadelphia Corporation for Aging
Pima Council on Aging
Positive Maturity, Inc.
Prime Plus, Norfolk Senior Center
Rocky Mountain Development Council, Area
VIA Agency on Aging, city of Miles City
RSVP in Oklahoma
RSVP in Pottawatomie County
RSVP of Central OK, Inc.
RSVP of Dane County, Inc.
RSVP of Kay County
RSVP of Montgomery County
RSVP of the Flint Hills
RSVP of Volunteer Center of Los Angeles
RSVP Tulsa
Sacramento Cty. Dept. of Human Assistance
Senior Action, Inc.
Senior Citizens Association
Senior Connections
Senior Friendship Centers
RSVP of the Central Coast
Sierra Joint Office on Aging
South Florida Community College
Southwestern IL College
SOWEGA Council on Aging
St. Mary County RSVP
Stuttgart Chamber of Commerce
Stuttgart--North Arkansas County RSVP
Sumter Senior Services
TN Opportunity Programs, Inc.
Triton College
United Way of Martin County
Upper East TN HAD
Utah National Guard
Venango County Commissioners
Village of Ruidoso
Volunteer Macon
Volunteers of America--Northern Colorado
Volunteers of America of New Orleans RSVP
Volunteers of America of Minnesota
Volunteers of America RSVP Program
Volunteers of America, Dakotas
Wayne County Action Program Inc.
Western IL AAA
Yadkin Economic Development District, Inc.
Yellowstone County Council on Aging,
York County Council on Aging
YWCA of McLean County
  
                                 ______
                                 
  Appendix B.--VISTA Member Exit Survey: September 2011-November 2012
    VISTA members are an integral component of the anti-poverty mission 
of the AmeriCorps VISTA program. Not only do members support VISTA 
projects in carrying out programs to overcome poverty, they also help 
organizations that sponsor VISTA projects build capacity and support 
services and maintain grounded connections with the communities they 
serve.
    In an effort to empower and validate the contributions of our 
VISTAs, we ask them to fill in the Member Satisfaction Survey when they 
complete their service. The survey is an important tool for us to gain 
an understanding of the satisfaction with the VISTA program and to 
identify the training and support needs of the active VISTA member.
    The survey is also an important tool for us to measure how best we 
can support VISTAs who are veterans of the U.S military. The results of 
the Member Satisfaction Survey are overwhelmingly positive among VISTAs 
who are veterans.
    <bullet> Nearly 78% of members who are veterans rate their overall 
experience of serving with AmeriCorps VISTA as 'extremely satisfied' or 
'satisfied'.
    <bullet> 80% of members who are veterans state that participation 
in national service helped them reconnect with community activities in 
civilian life.
Survey Question: Has your participation in national service helped you 
        reconnect with community activities in civilian life?
                  responses by vista who are veterans


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



         Comments by AmeriCorps VISTA Members who are Veterans
    I was very shy, and I had low self-esteem issues. AmeriCorps VISTA 
service taught me that I can do whatever I put my mind to. It exposed 
me to new avenues in life I would have never thought I could travel.
                                           Veteran in Cleveland, OH
    Being an AmeriCorps VISTA fulfills the desire I've had for years to 
become a servant in the Army, Marine, or Navy. I was rejected years ago 
because of my diabetes. It is a true honor to be a part of the 
Corporation for National and Community Service.
                                            Veteran in Columbus, OH
    My AmeriCorps VISTA experience was defining. Before joining VISTA, 
I had no confidence at all. I had been on disability for 15 years, and 
I had tried to find work, but alas no results. I really thought I would 
never find anything. Couple that with the fact that I never really 
thought I had accomplished anything in my life, and AmeriCorps service 
was really defining for me.
                                           Veteran in Vancouver, WA
    The experience of working with the youth of the community has 
helped me make the decision to pursue a new job working with the youth.
                                            Veteran in Caldwell, ID
    My AmeriCorps service helped me to realize that I can make a 
difference to those who are less fortunate and living in low income 
communities. Therefore, I decided while doing my service that I would 
go back to school. I am now getting my Master's degree in Public 
Administration.
                                          Veteran in Montgomery, AL
    It helped me determine that I want a career in the nonprofit 
sector.
                                          Veteran in Tuscaloosa, AL
    It has helped me define myself as a person and my beliefs.
                                         Veteran in Washington, DC.

    My year of AmeriCorps service changed my life and helped me to 
realize that I belong in public service.
                                             Veteran in Ashland, KY
    My experience with AmeriCorps confirmed to me that my choice to 
become a social worker was the right choice. Helping homeless veterans 
helped me understand that this is exactly what I want to do for the 
rest of my life. I will always be grateful for this experience because 
of that. This experience will stay with me for the rest of my life.
                                         Veteran in Washington, DC.

    I realized that I have the capacity, willingness, ability, and 
skills to pursue my graduate program and be a psychologist and work in 
low-income communities, particularly with minority groups.
                                          Veteran in Emmitsburg, MD
    It has confirmed my belief in continuing to help my fellow man/
woman in any way that I can. Also, it has reaffirmed my deep belief in 
God, that we are all his creation, and that we all should be concerned 
about the welfare of others.
                                           Veteran in Wyandotte, MI
    I learned that * * * if you continue to make one small difference 
at a time, you eventually make a big difference. This was a very 
important lesson that I took away from my service experience.
                                             Veteran in Beckley, WV
    Experiencing diversity whether it was race, culture, or economic 
status, taught me to always remember that people come from different 
situations and to never be judgmental toward someone.
                                             Veteran in Madison, WI
    I never knew how much children depended on people other than their 
parents until I worked in an alternative school. I saw how the feeling 
of ``no one cares'' affects children. It is something that will stay 
with me forever. It made the decision for me to become an educator.
                                             Veteran in Hampton, VA
    After my service as a VISTA volunteer, I thought I could return to 
my career as a computer programmer and put volunteering out of my mind. 
I did return to programming, but I ending up leaving the field again to 
obtain a Master of Divinity. I'm now a community-based Chaplain!
                                           Veteran in Kissimmee, FL
    When I came into VISTA, I was in a dark place after my military 
service, trying to find my place and reintegrate into my community. 
VISTA helped me do just that. Now I am moving into employment, my next 
step as a disabled veteran and Wounded Warrior. I am so very thankful 
to VISTA and United Way for their patience and help. I am forever 
grateful for this experience.
                                             Veteran in Augusta, GA
    My VISTA experience was making myself a better person, being a part 
of a compassionate community, and doing something important in my life.
                                         Veteran in Baton Rouge, LA
    As a veteran, I would like to continue * * * to help others in 
these and future times. I feel AmeriCorps VISTA is the perfect 
opportunity to do so.
                                            Veteran in Columbus, OH
    I have not had a full-time job in almost 20 years. My AmeriCorps 
service helped show me that I was capable, employable. It showed me 
that if I focus on an issue and I receive the proper training, 
experience, and positive feedback, then there is nothing I can't do. I 
have been honored to serve my community * * * and those in need connect 
to agencies and organizations that are there to provide services.
                                         Veteran in Washington, DC.

    It gave me an idea of what I like, what I need from a work 
environment, and the balance that I must have in my life in order to 
function at my best on the job, especially, as a veteran with PTSD.
                                             Veteran in Atlanta, GA

    Chairman Sanders. Thank you very much, Ms. Spencer.
    Secretary Coleman Nee from the Department of Veterans' 
Services for The Commonwealth of Massachusetts is our next 
panelist. The reason we asked you to come is that we have heard 
you are doing as good a job as any State in the country in 
terms of providing services to veterans, and we want to see 
what we can learn from you.
    Thank you very much for being with us, Mr. Nee.

STATEMENT OF COLEMAN NEE, DEPARTMENT OF VETERANS' SERVICES, THE 
                 COMMONWEALTH OF MASSACHUSETTS

    Mr. Nee. Thank you very much, Mr. Chairman. We do an 
excellent job in Massachusetts which I would like to take 
credit for but I cannot. I have an outstanding team that does 
phenomenal work every day. So, I will pass on your thanks to 
them.
    Before we begin, I would also like to thank you, this 
Committee, the Federal Government, and the VA, as Dr. Sowers 
mentioned, providing resources, thoughts and prayers to those 
of us in the Commonwealth of Massachusetts, and in particular 
the city of Boston over the last 2 weeks.
    My name is Coleman Nee and I am Secretary of Veteran 
Services for the Commonwealth of Massachusetts. I want to thank 
the Chairman and the Members for the opportunity to address you 
and speak about the important role State departments of 
veterans' services can and do play in order to ensure we are 
providing the highest quality of benefits and services to our 
veterans and their families.
    On behalf of Governor Deval Patrick and Lieutenant Governor 
Timothy Murray, I am proud that Massachusetts is a leader in 
providing veterans' benefits and services.
    Some of our highlights include the fact that by State law 
we mandate a vet service officer to every city or town in the 
Commonwealth. We provide over $70 million in State taxpayer 
funds in direct financial benefits to veterans and dependents. 
We launched a first-in-the-nation Web portal for veterans 
benefits, called MassVetsAdvisor.org.
    We collaborate with the our Division of Career Services to 
maximize employment opportunities for every veteran; and we are 
offering unique peer support programs in the area of veteran 
suicide prevention, crisis intervention, and ending 
homelessness.
    The greatest emphasis we have, and I think it has been 
highlighted here today, is that we placed a collaboration 
between Federal, State, municipal, and private NGO's and non-
profits to ensure we are creating meaningful partnerships to 
maximize resources and provide the finest benefits and services 
this country has to offer and that all of our veterans most 
assuredly have earned.
    In Massachusetts, we found that there is not always a lack 
of resources for veterans and their families. In fact, the 
biggest impediment is accessing the benefits and lack of 
knowledge of those benefits and how to navigate the various 
bureaucracies associated with those benefits.
    To that end, we have instituted a number of programs over 
the past few years to increase access, knowledge, and 
navigation of those resources and benefits and we feel some of 
these could serve as national models.
    Included in this is our SAVE program, Statewide Advocacy 
for Veterans Empowerment Team. SAVE is a collaboration with our 
Massachusetts Department of Public Health, Suicide Prevention 
Bureau. It is comprised of veterans or family members of 
veterans who have lived through similar transitions and can use 
their experiences to build a rapport with veterans and/or 
veteran family member.
    It offers peer-to-peer crisis intervention coupled with 
resource navigation to advocate for veterans who are not able 
to obtain the benefits they have earned due to institutional or 
personal barriers.
    In fiscal year 2012, we provided direct outreach to over 
1,400 veterans in Massachusetts; 234 of those veterans received 
direct referral and linkage services; 94 veterans received 
active case management with 10 of those individuals receiving 
case management for ``critical incidences.''
    I can assure you that the young men and women who work on 
that team have guaranteed that they are men and women who are 
veterans of the Commonwealth who are alive today who I doubt 
may be alive were it not for the help and assistance that this 
team provided.
    Based on the success of this, we have migrated this 
approach to peer support to the area of ending veterans 
homelessness.
    In our Statewide Housing and Advocacy for Reintegration and 
Prevention Team or SHARP is an effort and a collaboration 
between the U.S. Department of Veterans Affairs and the VA's 
Center for Ending Veterans' Homelessness, accomplishing through 
peer support, mental health services, psychiatric evaluations, 
and linkages to emergency shelters at Vet Center facilities as 
well as non-profits.
    We are enrolling more veterans in our HUD-VASH program. We 
are housing them quicker. We are keeping them housed 
permanently. Our rate of working with these veterans through 
peer support and maintaining their ability to access services 
not only has resulted in a 27 percent decrease in the amount of 
homeless veterans over the past 2 years but it is resulting in 
significant cost savings as these veterans are accessing more 
efficient and more effective treatment and permanent supportive 
housing rather than continuing through the system of going from 
shelter to shelter and services to services without any 
coordinated effort.
    Our Women Veterans Network continues to increase outreach 
and direct services. We are very proud of our Women Veterans 
Network. There are over 27,000 women veterans in the 
Commonwealth. Women are the fastest growing segment of our 
veterans' population, and access to outreach and benefits and 
services for women is more critical than ever.
    We produce annual newsletters. We are holding our fifth 
annual Statewide women's veterans conference this June. We do 
many networking events, and we hold a Women Veterans 
Appreciation Day where we award the outstanding woman veteran 
of the year award, the Deborah Sampson Award, to a different 
woman veteran each year. Last year our Women Veterans Network 
provided direct case work and referral services to over 500 
women veterans alone.
    Finally, our MassVetsAdvisor.org Web site which was started 
with $1 million in Federal funding supported through the 
American Recovery and Reinvestment Act. It is a collaboration 
between the Mass Technology Collaborative, the Home Base 
Program, and the Red Sox Foundation.
    That is a one-stop resource that streamlines the data of 
over 400 benefits and services from Federal, State, and local 
non-profits under one Web portal easy to search based on your 
time of service, when you served, and branch of service.
    So in closing, I would say that the State Department of 
Veteran's Services operates at the community level and in 
conjunction with the numerous other human service agencies and 
providers.
    This model allows us to be in tune with local resources and 
programs that can provide on-the-ground critical resources to 
ensure no veteran or family member is denied access to 
services.
    In closing, I would like to thank the Committee for the 
opportunity to testify here today and encourage you to examine 
our State programs and services for best practices. We feel 
that in collaboration with the Department of Veterans Affairs 
we can provide the finest resources and care for our veterans 
and their family members going forward.
    Thank you.
    [The prepared statement of Mr. Nee follows:]
             Prepared Statement of Coleman Nee, Secretary, 
             Massachusetts Department of Veterans' Services
    Good morning Chairman Sanders and Honorable Members of the Senate 
Committee on Veterans' Affairs. My name is Coleman Nee and I am 
Secretary of the Massachusetts Department of Veterans' Services.
    I want to thank the Chairman and the Members for this opportunity 
to address you and speak about the important role state departments of 
veterans' services can and do play in order to ensure we are providing 
the highest quality benefits and services to our veterans and their 
families.
    On behalf of Governor Deval Patrick and Lt. Governor Timothy 
Murray, I am proud to report that Massachusetts leads the Nation in 
veterans' benefits and services. Highlights of Massachusetts benefits 
include: a veteran service officer in every city and town; providing 
over $70 million dollars in direct financial benefits to veterans and 
their dependents; launching the first-in-the-nation web portal for 
veterans benefits MassVetsAdvisor.org; collaborating with the 
Massachusetts Division of Career Services to maximize employment 
opportunities for every veteran; and offering unique peer support 
services in the areas of veteran suicide prevention, crisis 
intervention and support to find homes.
    Our greatest asset is the emphasis we have placed on collaboration 
between Federal, state, municipal and private providers to ensure we 
are creating meaningful partnerships to maximize resources and provide 
the finest benefits and services the country has to offer.
    In Massachusetts, we have found that there is not a lack of 
resources for our veterans and their families. The major impediment to 
accessing benefits is the lack of knowledge of those benefits and 
resources and the navigation of the various bureaucracies associated 
with those benefits.
    To that end, Massachusetts has instituted a number of programs over 
the past few years to increase access, knowledge, and navigation of 
resources and benefits that we feel can serve as national models.
    These programs include:

Statewide Advocacy for Veterans Empowerment (SAVE) Team
    <bullet> SAVE is a collaboration with the Massachusetts Department 
of Public Health and their suicide prevention division.
    <bullet> The SAVE Team is comprised of veterans or family members 
of veterans who have lived through similar transitions and can use 
their experiences to build a rapport with veterans and/or veteran 
family member.
    <bullet> SAVE Team members offers peer-to-peer crisis intervention 
coupled with resource navigation to advocate for veterans who are not 
able to obtain the benefits they have earned due to institutional or 
personal barriers.
    <bullet> In FY 2012, SAVE highlights include:

         - Direct outreach provided to over 1400 veterans;
         - 234 veterans received direct referral and linkage services;
         - 94 veterans received active case management with 10 of those 
        involving ``critical incidences;''
         - Partnership with the Massachusetts National Guard and 
        provided critical support services during the Army-wide suicide 
        prevention stand down last fall;

    <bullet> As SAVE achieved its 5th Anniversary on February 11, 2013. 
DVS has experienced increased requests for support and awareness 
education to include educators, clinical staff, first responders, and 
correctional officers.
    <bullet> Most recently, we have received requests from hiring 
managers and employers who are eager to know more about military 
culture as a means to improve their processes to hire veterans and 
support them when they return from deployment.
Statewide Housing Advocacy for Reintegration and Prevention (SHARP) 
        Team
    <bullet> Based on the success of the SAVE peer model, SHARP is a 
collaboration between DVS and the U.S. Department of Veterans Affairs 
(VA) in the effort to end homelessness among veterans.
    <bullet> This is accomplished through peer support, mental health 
services, psychiatric evaluation and linkages to emergency shelter at a 
Veteran-centric facility and permanent supportive housing through 
enrollment in the HUD-VASH program.
    <bullet> SHARP was created as a pilot program in December 2010 with 
initial Federal funding of $323,000. The initial staff of 4 peer 
specialists, a substance abuse counselor, psychiatrist and VA case 
management were able to provide safe and stable housing for 50 veterans 
in the Greater Boston area.
    <bullet> Based on the success of the pilot program, the VA 
increased DVS funding by an additional $1.4M in October 2012 to allow 
for the expansion of the SHARP model by adding 9 new peer support 
specialists and 12 new case managers positions contracted to local 
veteran centric providers.
    <bullet> This collaboration with the VA and veteran service 
providers will allow DVS to substantially increase our outreach and 
access to veterans while putting Massachusetts on the path to be the 
first state in the country to end veterans' homelessness.
Women Veterans Network (WVN)
    <bullet> The Women Veterans Network continues to increase outreach 
and direct services to the over 27,000 women veterans in the 
Commonwealth.
    <bullet> As women are the fastest growing segment of the veterans' 
population, outreach and access to benefits is even more critical.
    <bullet> The WVN provides a semiannual newsletter, an annual 
conference, several networking events, and an annual Women Veterans 
Appreciation Day.
    <bullet> More recently, the WVN offers peer support and has 
provided direct case work and referral services to over 500 women 
veterans last year alone.
MassVetsAdvisor.org
    <bullet> Massachusetts received $1 million in Federal funding 
supported through the American Recovery and Reinvestment Act (ARRA) to 
promote broadband adoption and usage for veterans.
    <bullet> The Massachusetts Broadband Institute, a division of the 
Massachusetts Technology Collaborative partnered with the Massachusetts 
Department of Veterans' Services and the Red Sox Foundation and 
Massachusetts General Hospital Home Base Program, to develop the Web 
site as an easy-to-use resource for Veterans and their family members.
    <bullet> This one-stop resource streamlines comprehensive data of 
over 400 benefits and resources from state and Federal resources and 
lists only the benefits and services each veteran is qualified for.
    <bullet> MassVetsAdvisor has allowed DVS to reach veterans of all 
generations and seamlessly connect them to their local resources, 
thereby significantly enhancing their access to and knowledge of 
benefits.

    State departments of veterans' services operate at the community 
level, in conjunction with numerous other state human service agencies 
and private providers. This model allows us to be in tune with local 
resources and programs that can provide critical resources to ensure no 
veteran or family member is denied access or service.
    Traditional care through the VA is based on the individual veteran. 
Every veteran receives different care based on his or her eligibility 
and the veteran may not qualify for certain programs and benefits at 
the VA level. The states are free to operate outside the traditional 
parameters of VA programs. This flexibility allows the states to 
maximize non-VA resources and provide the critical connections to 
unique community resources to ensure veterans and their families have 
the access and knowledge they so deserve.
    In closing, I want to again thank the Committee for the opportunity 
to testify today. Additionally, I encourage this Committee to examine 
unique state programs and best practices, like the Massachusetts SAVE & 
SHARP initiatives, for potential expansion and pilot programs through 
the Department of Veterans Affairs so other states can benefit and we 
can provide the finest resources for our veterans and their family 
members.

    Thank you.

    Chairman Sanders. Mr. Nee, thank you very much for your 
work and for your testimony.
    Mr. Nee. Thank you.
    Chairman Sanders. Our next panelist comes from the Military 
Initiatives for Points of Light. They do outstanding work.
    Mike Monroe, thank you very much for being with us.

     STATEMENT OF MIKE MONROE, VICE PRESIDENT OF MILITARY 
                  INITIATIVES, POINT OF LIGHT

    Mr. Monroe. Thank you, Chairman Sanders.
    Chairman Sanders, Ranking Member Burr, on behalf of 
Michelle Nunn, our CEO, and Neil Bush, our Chair, and thousands 
of volunteers, I would like to thank you for giving Points of 
Light the opportunity to talk about the Community Blueprint 
Initiative.
    My name is Mike Monroe and I serve as the Vice President of 
Military Initiatives at Points of Light. I came to this role in 
June of last year after serving as a Marine officer, infantry 
officer for 12 years, and as a civilian employee of several 
government agencies.
    Let me start with a simple statement. The Community 
Blueprint is a set of tools and resources that individuals and 
community organizations can use to help veteran, 
servicemembers, and their families succeed.
    The Blueprint got its start at the 2010 White Oak Summit 
where representatives from more than 55 non-profit, corporate, 
and government organizations gathered to discuss the thousands 
of non-profits engaged in efforts to help returning veterans 
and the problems caused by a real lack of coordination of their 
efforts.
    Some of those in attendance included the Military Officers 
Association of America, Blue Star Families, the USO, the 
National Military Family Association, and The American Legion 
Auxiliary.
    Those at the summit were determined to create a way for 
community organizations to work together to offer better, more 
comprehensive, and more accessible services to the hundreds of 
thousands of veterans returning home. Members of this original 
group stepped forward and created the Community Blueprint 
Advisory Council.
    This council, still intact today, created a suite of best 
practices to help returning veterans in eight critical areas--
employment, housing, education, reintegration, behavioral 
health, volunteerism, family strength, and financial and legal 
matters.
    Four things that make the Community Blueprint uniquely 
useful, powerful, and sustainable are. It is a public-private 
partnership. It can be customized to a community's needs and 
scaled to fit a community's size. It is completely volunteer 
powered, and it engages veterans as part of the solution.
    The Community Blueprint was officially launched in October 
2012 with the generous support from lead sponsor, ITT Exelis 
along with the UPS Foundation and the Corporation for National 
Community Service. The Community Blueprint is a strong public-
private partnership bringing on-the-ground organizations and 
people together, driven by local needs and using proven tools 
and resources to make the transition to civilian life easier 
for tens of thousands of returning veterans and their families.
    Exelis has also formed the Exelis Action Corps to engage 
its own employees, 10 percent of whom are veterans, as 
volunteers working to help meet veterans' needs.
    At Points of Light, we think the best way for government, 
the private sector, and the non-profit sector to help the over 
one million projected transitioning veterans reintegrate back 
into society is by defining what works and implementing proven 
strategies in a cooperative, coordinated way at the community 
level.
    We know that no one organization can provide a lifetime of 
continued support. Points of Light and it partners are working 
alongside government agencies to help fill the gaps and connect 
veterans to critical services.
    Veterans like David Scott, a third generation Navy veteran 
who served in Desert Storm and Operation Deny Flight. David is 
a disabled veteran. On his own, David could not get the health 
care he needed. Thanks to an intervention by the local Red 
Cross, a part of the Blueprint Community in Atlanta, David 
finally got an appointment with the VA Clinic in Oakwood, 
Georgia, to get help with his long-term care needs.
    The Community Blueprint engages veterans as part of the 
solution. With backing from AmeriCorps, the Blueprint has 
created a Veteran Leader Corps, consisting of 75 members, half 
of whom are veterans, serving in 19 Blueprint Communities. 
These 75 men and women add to our ``boots on the ground'' as 
AmeriCorps members who are in the field providing direct 
service to veterans every day. Veteran Leader Corps members use 
Blueprint tools and resources to help veterans and military 
families in all areas of need but most specifically in job 
readiness and volunteerism.
    Veteran Leader Corps members like Retired Chief Petty 
Officer Robert Rotkosky, a former U.S. Navy SEAL, who dedicated 
his career to protecting our way of life. After 20 years of 
faithful service to our country and a second career as a 
contractor helping the military, ``Ski'' as he is known to us 
had more to give. He chose to support his fellow sailors, 
marines, soldiers, airmen, and guardians by enlisting in the 
Veterans Leader Corp in Huntsville, AL. ``Ski'' now works with 
``Still Serving Veterans'' Huntsville, where he and his 
colleagues have used Blueprint tools and resources to help 41 
veterans find jobs and 100 veterans get proper benefits in just 
3 months.
    Since the launch 6 months ago, the Blueprint program has 
expanded from 20 to 44 communities. Blueprint communities now 
dot the country from Fayetteville, NC, to Lakewood, WA; from 
Denver, CO, to Fairborn, OH.
    The Blueprint tools and resources can be useful to 
hundreds, even thousands of other communities.
    I want to thank you again, Mr. Chairman, and all the 
Members of the Committee for your service and support of 
veterans and their families.
    We look forward to continuing to work with you to provide 
those who served our country with what they have earned, a 
prosperous and healthy future aided, as needed, by a network of 
compassionate support.
    Thank you.
    [The prepared statement of Mr. Monroe follows:]
      Prepared Statement of Mike Monroe, Vice President, Military 
                      Initiatives, Points of Light
    Chairman Sanders, Ranking Member Burr, and Members of the 
Committee: My name is Mike Monroe, and I serve as the Vice President of 
Military Initiatives at Points of Light. I came to this role in June of 
last year, after serving the country as both a member of the Marine 
Corps and as a civilian employee of several government agencies.
    On behalf of Michelle Nunn, our CEO and Neil Bush, our Board Chair, 
I would like to thank the Senate Veterans' Affairs Committee for 
bringing attention to the essential role that community-based 
organizations play in addressing the challenges faced by the men and 
women who have served our country in the Armed Forces. Thank you also 
for giving Points of Light the opportunity to present the Community 
Blueprint Initiative to the Committee.
    As the Committee is well aware, more than 2.4 million men and women 
have served in current conflicts. Over the next four years, 1 million 
service men and women will transition out of the military and back into 
their communities. Many will face significant challenges returning to 
civilian life. And many will face tremendous obstacles, including 
unemployment, behavioral health issues, and homelessness.
    There are some 40,000 nonprofits working to help, but too often 
these efforts are isolated and have low impact. No single organization 
or agency can provide a lifetime of care and support, but people across 
the country are asking for guidance on how to help veterans, 
servicemembers and their families in a coordinated, comprehensive, and 
community-wide way.
    This challenge led to the launch of the Community Blueprint. The 
initial idea came out of a retreat in 2010 where over 55 nonprofit, 
government, and for-profit entities concluded this problem had to be 
resolved. From this initial group of 55, a group of 16 leaders stepped 
forward to help build this new effort, which they called the 
``Community Blueprint.''
    Under the leadership of these 16 (known at the `Blueprint Advisory 
Council') and with the help of some American Legion Auxiliary VISTA's, 
the Blueprint was created. The group set out to create tools and 
resources that would help communities assist veterans, military members 
and their families at the local level. Once the content was created, 
the Advisory Council (now at 18 members) wanted the Blueprint to be 
housed and administered by an organization that had expertise and 
experience at the community level. After an extensive search, they 
found a home for it at Points of Light, an international nonprofit 
founded by President George H. W. Bush and the largest organization in 
the world dedicated to volunteer service.
    This Council, still intact today, created a suite of best practices 
to help returning veterans in eight critical areas:
                               employment
    To help veterans find meaningful employment, the Council created 
the following seven community solutions related to employment:

    <bullet> Job Fairs--hosting job fairs focused on veterans, 
reservists, national guardsmen, and their spouses.
    <bullet> Resume Preparation Workshops--staging resume workshops for 
veterans and military spouses.
    <bullet> Mock Interview Workshops--holding mock interview workshops 
for veterans and military spouses.
    <bullet> Training: planning Reverse Boot Camps designed to 
introduce veterans and servicemembers to the types of jobs available in 
their community, including managing their expectations regarding office 
culture, advancing their careers and aiding in the translation of 
military experience to civilian terms.
    <bullet> Inducements for Military-Friendly Employer Practices--
educating employers about the unique professional challenges and skills 
of this population.
    <bullet> Annual Media Campaign--raising awareness of the benefits 
of hiring a veteran.
    <bullet> Community Action Team--forming a Community Action Team 
focused on employment.
                              volunteerism
    The following are community solutions for leveraging volunteerism 
to meet the needs of servicemembers, veterans and their families.

    <bullet> Effective Volunteer Engagement--providing training for 
volunteers to serve with and for the military community.
    <bullet> Implementing a Service Fair--holding a service fair to 
share the many ways in which volunteers can serve in the area of 
veterans services.
    <bullet> Volunteerism Community Action Team--learning how to form a 
Volunteerism Community Action Team.
                            family strength
    The following are community solutions for addressing the challenges 
of veterans and their families:

    <bullet> Social Service Outreach--publicizing the formal military 
outreach efforts by local nonprofits.
    <bullet> Child Care--providing child care for families during 
deployment and recovery from wounds.
    <bullet> Respite for Caregivers and Care Recipients--providing 
respite care for those who are responsible for the needs of loved one.
    <bullet> Annual Media Campaign--thanking families for their service 
and highlighting local and government services.
    <bullet> Community Action Team--learning how to form a Family 
Strength Community Action Team.
                           behavioral health
    Behavioral health struggles, such as post-traumatic stress (PTS), 
Post Traumatic Stress Disorder (PTSD), major depressive disorder (MDD) 
or Traumatic Brain Injuries (TBI), can lead to malaise, unemployment, 
problematic family relations and--in an increasing number of cases--
suicide.
    To serve our servicemembers and veterans in a manner commensurate 
with their needs, we must understand and provide for the unique 
stressors they face on a day-to-day basis.
    The following are community solutions for addressing the behavioral 
health challenges of veterans and their families.

    <bullet> Annual Anti-Stigma Campaign--encouraging veterans and 
their families to defy stigmas and seek help.
    <bullet> Provider Training--training local health providers on 
special issues such as PTSD/TBI and other veteran issues and resources.
    <bullet> First Responder Training--training police, fire rescue, 
school personnel and ERs about issues and resources that affect members 
of the military community.
    <bullet> Ease of Access to Care--making it easier for veterans, 
servicemembers and their families to access mental health care.
    <bullet> Community Action Team--learning how to form a Behavioral 
Health Community Action Team.
                          financial and legal
    Financial and legal challenges can be a distraction from the 
mission of current servicemembers and an additional burden to veterans 
and military families struggling to re-integrate into civilian society. 
Often when these challenges emerge, many veterans may hesitate to reach 
out for help, given their training in self-reliance.
    The following are community solutions for addressing the financial 
and legal challenges of veterans and their families:

    <bullet> Financial and Legal Training--educating the community 
about common financial/legal issues and available resources.
    <bullet> Veterans Court--publicizing steps to utilize special court 
systems that are sensitive to military issues.
    <bullet> Community Action Team--learning how to form a financial 
and legal Community Action Team.
                               education
    Education changes lives in unimaginable ways, and in the modern 
world nothing is so great a predictor of a person's future employment, 
salary or standard of living. America's military veterans and children 
face unique challenges in education. We owe it to them to help them 
overcome these hurdles and attain the education they need to be 
successful.
    The following are community solutions for addressing challenges 
related to education and the military community:
K-12 Education
    <bullet> School Transfers--adopting systems to ensure easy 
acceptance of transcripts and credits of a relocating military child.
    <bullet> School Training--training schools to identify military 
children and inform schools on the pertinent issues and available 
resources.
    <bullet> Community Resources--implementing programs that welcome 
and support military children.
    <bullet> Annual Media Campaign--celebrating the contributions and 
sacrifices of the military child.
    <bullet> Guide to Impact Aid--learning about Impact Aid, a 
Department of Education program that compensates schools with 
significant military child attendance.
    <bullet> Community Action Team--learning how to form a K-12 
Education Community Action Team.
Higher Education
    <bullet> Career Counselor Training--training counselors about 
special military issues and resources.
    <bullet> Mentoring--offering mentors to student veterans, 
servicemembers and their families.
    <bullet> Scholarships--offering special financial programs for 
student veterans, servicemembers and their families.
    <bullet> Campus Welcome and Reintegration--developing and 
implementing strategies to identify and support military-connected 
students and families.
                                housing
    Homelessness in a developed nation is inexcusable, but homelessness 
among the military community is even more shameful. Veterans have 
sacrificed for their country, often risking their lives to protect 
American freedoms.
    In the United States, 200,000 veterans will be homeless at some 
point over the course of a year, with approximately 107,000 veterans 
homeless each night. Nearly one fifth of the homeless population is 
veterans, though only 8 percent of the general population can claim 
veteran status. The following are community solutions for addressing 
housing stability and homelessness among veterans:

    <bullet> Homelessness Training--providing shelters, veteran service 
organizations, nonprofits, and community members with the knowledge 
required to effectively combat veteran homelessness.
    <bullet> Supportive Housing Awareness--raising awareness of veteran 
homelessness and the availability of supportive housing opportunities; 
raising awareness among housing developers and funders of the 
importance of supportive housing as a solution to homelessness.
                             reintegration
    Servicemembers, whether returning from deployment or permanently 
separating from the military, come home to a time of celebration with 
family and friends. However, when the excitement wears off, the reality 
and challenges of reintegration begin.
    The following are community solutions for addressing the 
reintegration challenges of veterans and their families:

    <bullet> Welcome Program--providing outreach to veterans, 
servicemembers and their families entering into the community.
    <bullet> Mentoring Program--establishing a mentoring program for 
veterans moving into the community.
    <bullet> Annual Media Campaign--thanking local veterans for their 
service and highlighting resources.
    <bullet> Coordination with Yellow Ribbon Program--expanding this 
DOD Program for supporting reserve and national guard families into 
outreach to veterans.
    <bullet> Community Action Team--learning how to form a 
Reintegration Community Action Team.

    This set of tools and practices provides a framework for 
communities to produce positive, measurable outcomes for veterans, 
military members and their families. Our goal is to have hundreds of 
communities (200 by 2014) touching veterans, military and their 
families through the Blueprint framework.
    To do this we are putting some ``boots on the ground.'' Points of 
Light's Veteran Leader Corps is a new AmeriCorps program. The program 
has 75 members (half of whom are veterans) spread out around 15 to 20 
communities, focusing on employment and volunteerism.
    Veterans Leader Corps (VLC) members work out of host sites within 
communities. These host sites are local nonprofits focusing on 
veterans' issues. The first group of VLC members launched in Oct 2012 
(30 members in 11 communities). The remaining VLC members (45 in eight 
additional communities) launched at the end of March 2013. There are 
now 44 Blueprint Communities.
    The building and expansion of the Blueprint is made possible by a 
grant from the Corporation for National and Community Service (CNCS) as 
well as funding from ITT Exelis and UPS. Exelis has created the Exelis 
Action Corps (EAC) to offer their employees opportunities to lead and 
participate in volunteer service projects that focus on veterans, 
military members and their families. We are working to ensure that the 
EAC is integrated with local Blueprint Communities as well as VLC 
efforts.
    At Points of Light, we think the best way for government, the 
private sector and the nonprofit sector to help the over 1 million 
transitioning veterans reintegrate into society is to define what works 
and implement these proven strategies through local cooperation and 
coordination. We know that no one organization can provide a lifetime 
of continued support. Points of Light and its partners are working, 
alongside government agencies, to help fill the gaps and connect 
veterans to critical services.
    Veterans like David Scott, a third-generation Navy veteran who 
served--and was disabled--in Desert Storm and Operation Deny Flight. On 
his own, David couldn't get the health care he needed. Thanks to an 
intervention by the local Red Cross--a part of the Blueprint Community 
in Atlanta--David finally got an appointment with the VA Clinic in 
Oakwood, GA, to get help with his long-term care needs.
    We also think many veterans want to continue to serve here at home. 
Retired Chief Petty Officer Robert Rotkosky, a former Navy SEAL, 
dedicated his career to protecting our way of life. After 20 years of 
faithful service to our country and a second career as a contractor 
helping the military, ``Ski'' (as he is known) had more to give. He 
chose to support his fellow sailors, marines, soldiers, airmen, and 
guardians by enlisting in the Veterans Leader Corp in Huntsville, 
Alabama. ``Ski'' now works with ``Still Serving Veterans'' Huntsville, 
AL, where he and his colleagues have helped 41 veterans find jobs and 
100 veterans get proper benefits in just 3 months.
    At Points of Light, we value the commitment that service men and 
women have given to our country. We believe that helping returning 
veterans successfully reenter society is not only the right thing to do 
but the smart thing to do. These veterans have much yet to give and 
they are hungry for the opportunity to provide for their families and 
to be of continued service to their communities.

    Chairman Sanders. Mr. Monroe, thank you for your testimony 
and for the wonderful work your organization is doing.
    We are now going to hear from Eric Weingartner. Mr. 
Weingartner is the Managing Director of Survival and Veterans 
at the Robin Hood Foundation.
    Mr. Weingartner, thanks very much for being with us.

STATEMENT OF ERIC WEINGARTNER, MANAGING DIRECTOR, SURVIVAL AND 
                VETERANS, ROBIN HOOD FOUNDATION

    Mr. Weingartner. Thank you, Senator. Good morning, Chairman 
Sanders, Senators, and the Committee staff.
    On behalf of the Board of Directors and staff of Robin 
Hood, thank you for including us in this important discussion 
on community partnerships with the Veterans Administration.
    My name is Eric Weingartner and I manage those portfolios, 
Senator, that you mentioned at Robin Hood in New York City.
    Despite some progress on the part of the Veterans 
Administration, our work in New York City leaves us to conclude 
that the VA operates in relative isolation; disconnected from 
public and private resources that are fundamental to the 
livelihood and health our Nation's veterans.
    My intent today is to share with you our experience working 
in the veterans space with a suggestion or two for how to move 
forward.
    For context, Robin Hood's mission is simple--fight poverty 
in New York City. Since 1988, Robin Hood has focused on 
finding, funding, and creating programs in schools that 
generate meaningful results for families in New York's poorest 
neighborhoods.
    Over our 25-year history, Robin Hood has distributed more 
than $1.25 billion to hundreds of New York City-based not-for-
profit organizations.
    Robin Hood's programs have always served veterans. However, 
in the beginning in 2009, we noticed an up tick in the number 
of veterans showing up at our food pantries, our homeless 
shelters, and our job training programs.
    In response, we committed to tackling the issue more 
deliberately, and in partnership with the then-Chairman of the 
Joint Chiefs of Staff, Admiral Mike Mullen, we raised a $13-
million fund to incubate new programs to support veterans and 
their families.
    So, in the summer of 2011, we began to invest locally and 
were struck by a few underlying challenges.
    First, when veterans leave the military, they are 
discharged abruptly and without a support system to make a 
transition to civilian life.
    Second, demographic data on veterans is incomplete and not 
centrally managed, making it difficult to reach out to those 
veterans who could benefit from support services.
    Third, the VA and its programs are not properly integrated 
with local communities; and last, Veterans Service 
Organizations, while very well meaning and in some cases 
effective, are not at a scale or quality to meet the demand.
    In the face of these challenges, today we have invested 
$7.5 million in over 25 brand new programs. Our programs have 
placed over 700 vets in jobs, moved 250 street homeless 
veterans into shelter and connected 1250 veterans to legal 
services in partnership with our local VA.
    All of our new models aim to do two fundamental things: 
one, get help to those veterans and their families that need it 
most; and two, to serve as a testing ground for models that can 
be replicated nationally.
    A few underlying principles have guided our investment. 
Lessons that we believe have national relevance.
    First, we relied on New York City, the city of New York and 
the city's major funder of human services to be our partner. 
The majority of our investment has been made in partnership 
with our local government, augmenting existing city programs. 
We believe that this coordination is the primary condition for 
success.
    Second, instead of relying on Veteran Services 
Organizations to expand their reach, we instead choose to 
create new models with New York City's most established not-
for-profit service providers such as New York University's 
medical school, Single Stop, Common Ground, and the Jericho 
Project.
    Third, we formed an advisory board to ensure that the 
private sector both participated in our planning and was 
engaged in shaping new models of programming. Admiral Mullen 
and Robin Hood member, Steve Cohen, lead that board.
    What is ahead of us? I think some daunting challenges 
relating to reintegration must be addressed fundamentally. 
Government does not transition soldiers from military life to 
civilian life and the VA fails to create a safety net for 
soldiers after discharge.
    The Department of Defense and the VA need to manage a harm 
handoff. This coordination would connect soldiers to jobs or 
college in advance of discharge and would include a commitment 
to facilitate benefits, housing, and health care very 
efficiently and right away.
    While we are hopeful that the DOD's redesigned TAP program 
will improve the transition, we are fairly skeptical that the 
plans go far enough to ensure an effective safety net.
    Today I ask the Committee to help our veterans by 
committing to a new model of service and accountability. The VA 
must hold itself accountable to plan that can demonstrate 
integration and partnership with local communities. One that is 
measured by the Senate.
    The city of New York funds and manages an impressive roster 
of not-for-profits that are both publicly and privately funded. 
Unfortunately, we believe that the VA is structurally isolated 
from the system of services and should count on and utilize 
these resources in a more deliberate and systemic way.
    To this end, this spring Robin Hood, the city of New York, 
the business community, and the not-for-profit sector will 
pilot a first of its kind veterans' collaborative in New York 
City; and we ask the VA to join our effort to develop the 
connective tissue between the VA and the broader New York City 
community.
    Our team has been formed over the last 18 months and stands 
ready to formally collaborate with the VA to revamp our shared 
goal of ensuring financial, physical, and emotional health for 
our veterans.
    I ask the VA to commit today to this New York City pilot to 
create a first of its kind national model for helping our 
veterans get all the way home.
    Thank you very much for your time.
    [The prepared statement of Mr. Weingartner follows:]
Prepared Statement of Eric Weingartner, Managing Director, Survival and 
                    Veterans, Robin Hood Foundation
    On behalf of the Board of Directors and staff of Robin Hood, thank 
you for including us in this important discussion on community 
partnerships with the Veterans Administration, ``Call to Action: VA 
Outreach and Community Partnerships.''
                       the robin hood foundation
    For context, Robin Hood's mission is simple--fight poverty in New 
York City. Since 1988, Robin Hood has focused on finding, funding, and 
creating programs and schools that generate meaningful results for 
families in New York's poorest neighborhoods. Over our 25-year history, 
Robin Hood has distributed more than $1.25 billion to hundreds of New 
York City-based not for profit organizations.
                     robin hood veterans initiative
    Since our founding, Robin Hood's grantees have served veterans. But 
beginning in 2009, we noticed an uptick in the number of veterans 
relying on our food, job training, and housing programs. In response, 
we committed to tackling the issue more deliberately. In the spring of 
2011, in partnership with the then-Chairman of the Joint Chiefs of 
Staff Admiral Mike Mullen, we raised a $13-million fund to incubate new 
programs to support veterans and their families.
    In advance of our investment, Robin Hood staff worked to understand 
the veterans landscape in New York City and were alarmed by the 
conditions that we saw for both veterans and the organizations in place 
to serve them and their families.
    A few underlying challenges were most glaring:

    1. When veterans leave the military, they are discharged abruptly 
and without a support system to make a transition to civilian life.
    2. Demographic data on veterans is incomplete and not centrally 
managed, making recruitment a major challenge.
    3. The VA and its programs are not integrated with local 
communities.
    4. And last, Veterans Service Organizations are not at a scale or 
quality to meet the demand.

    We also recognized that there was an absence of leadership in the 
veterans space both nationally and locally, a leadership presence that 
was needed to engage a set of disparate partners to serve veterans more 
deliberately. Robin Hood has worked to fill some of that gap locally, 
both through grant making and through an informal network of government 
and private partners focused on the shared commitment to serve those 
who have served.
    A few underlying principles have guided Robin Hood's investment in 
the veterans space, lessons that we believe have national relevance. 
First, we relied on the city of New York, the City's major funder of 
human services, to be our partner. The majority of our investment has 
been made in partnership with our local government, augmenting existing 
City programs. We believe that this coordination is a condition for 
success. Second, instead of relying on veterans' service organizations 
to expand their reach, we instead chose to create new models with New 
York City's most established not for profit service providers. Third, 
we formed an advisory board to ensure that the private sector both 
participated in our planning and was engaged in shaping new models of 
programming. Admiral Mullen and businessman Steve Cohen lead our 
advisory board.
    To date, Robin Hood has made 25 grants totaling over $7.5 million. 
The grants have served over 6,500 veterans and their families. In the 
coming year, we plan to spend an additional $4.5 million, in effect 
spending the remainder of the fund. And while the special fund will 
exist no longer, its impact will continue. The grants we have made 
leave behind an institutional infrastructure for helping veterans, and 
the most successful of the veterans grants will carry on as core Robin 
Hood investments.
    Below is the breakdown of our vets funding to date:



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    

                           program highlights
Case Management/Benefit Connection:
    It is well acknowledged that veterans and their families often 
struggle to find appropriate resources to thrive following their 
service. In fact, only about half of all veterans access benefits for 
which they are eligible.
    This is not uncommon among poor New Yorkers generally. In response, 
Robin Hood created a program called Single Stop. Single Stop is a 
network of over 80 community-based sites citywide that serve 125,000 
poor New Yorkers annually by screening and enrolling them in public 
benefits.
    Our first step in our Veterans Initiative was to tap into this 
existing infrastructure to help needy veterans. First, in July 2013, we 
forged an innovative, cost-effective peer-based service model (veteran 
to veteran) to help 1,800 veterans and their families access public 
benefits, veterans' benefits, jobs, housing, mental health, education, 
and other social services. To date (April 2013), we have served over 
500 needy veterans. Second, in October 2012, we expanded the Single 
Stop pilot to help 175 veterans tap veterans' benefits utilizing 
``accredited benefits counselors'' at six sites across the city managed 
by the Bloomberg Administration. Finally, in April 2013, in partnership 
with the VA, we forged a pilot initiative with three VA Medical Centers 
in Brooklyn, Manhattan, and the Bronx to provide Single Stop services 
(access to public benefits, jobs, housing and other social services) to 
1,750 veterans identified as homeless or at risk of becoming homeless. 
And we do so to help the VA in its quest to eliminate veterans' 
homelessness by 2015.
Veterans' Legal Services:
    Poor veterans, like other poor New Yorkers, often need legal 
services. In fact, given the unique burden placed on servicemembers and 
their families, and the prevalence of mental health and substance abuse 
issues, the needs may be even greater, and more varied, than the 
typical poor household. Thus, in October 2011, Robin Hood partnered 
with three trusted legal providers to provide free legal services to 
800 low-income veterans citywide. Since then, we have added a fourth 
legal partner. To date (April 2013), the four legal providers have 
helped over 1,200 needy veterans with free legal services.
Mental Health:
    One in five veterans returning from Iraq and Afghanistan reports a 
service-related disability or suffers from post-traumatic stress or 
major depression.
    In the decade between 2002 and 2012, 2.4 million servicemembers 
have left active duty and have become eligible for VA health care with 
roughly 900,000 registering with the VA. Assessments of the electronic 
medical records for those who were evaluated by the VA show that 
approximately 22 percent of veterans evaluated were diagnosed with 
depression, and the prevalence of PTSD among these veterans was 
reported at 29 percent. Furthermore, the suicide rate for veterans is 
staggering; 18 veterans die daily by their own hands.
    Yet, a primary reason that returning veterans fail to seek 
treatment is perceived stigma. Many individuals fear that seeking 
mental-health services will jeopardize their career, community standing 
or both. Others are reluctant to expose their vulnerabilities to 
providers who may also be Armed Forces personnel themselves, given the 
military's emphasis on strength, confidence and bravery. And some 
veterans have found the settings or providers they used especially 
bureaucratic or unsatisfactory in other ways, and would pursue a 
different option if available.
    To date, we have invested $1.2 million across 3 grantees providing 
mental health services to veterans. We have enabled the Langone Medical 
Center at New York University School of Medicine's Military Veteran 
Clinic to provide family-focused, comprehensive outreach, screening, 
treatment and follow-up for mental health disorders for low income 
veterans and their families. In year one alone, over 300 families will 
be served through an intensive out-patient model. In addition, we have 
partnered with Vets Prevail to provide free, online cognitive behavior 
counseling, e-learning and peer-to-peer support for returning veterans 
outside the VA--the idea being to provide an easily accessible, stigma-
free option to veterans otherwise falling through the cracks. Our 
partnership with Give an Hour, a member-based organization of 
therapists, has provided more than 70,000 hours of free therapy to 
veterans and their families facing bouts of depression and PTSD The 
therapeutic service is now being copied across the country.
    Moving forward, we will push to further expand the presence of 
veteran and veteran family programming at the private medical 
institutions in New York City.
Jobs:
    There are 240,000 veterans living in New York city of whom 7 
percent are unemployed.\1\ The unemployment rate for veterans who 
served in the military since September 2001 (Gulf War-era II veterans) 
is 12 percent. It is more than twice that rate for young veterans 
(those ages 18 to 24) who served during Gulf War era II at roughly 29.1 
percent for 2011.\2\ The grants we've made focus on job training and 
placement and will help veterans build upon their existing skills to 
find work in growing sectors where employers are hiring. Our largest 
partnership to date is with the city of New York's Workforce One (WF1) 
system, where we've provided $600,000 to increase the number of 
veterans and their spouses that are placed in jobs to almost 1,500 
annually. Through a new grant to Helmets to Hardhats, we project that 
200 veterans will be placed in union apprenticeships, primarily in the 
trades, in the coming year.
---------------------------------------------------------------------------
    \1\ U.S. Department of Veterans Affairs
    \2\ U.S. Bureau of Labor Statistics
---------------------------------------------------------------------------
    In total, we have invested just shy of $2 million in over eight 
organizations related to employment and training.
Veterans Housing:
    In November 2009, President Obama and Secretary of Veterans 
Affairs, Eric Shinseki, announced a commitment by the Federal 
Government to end homelessness amongst our veterans in five years--by 
2015. Vets make up approximately 6 percent of the New York State 
population, but are at least 10 percent of New York City's street 
homeless population.
    To date, Robin Hood has invested $1.6 million toward housing and 
homeless services for our city's veterans. A grant of$785,000 has been 
allocated to three direct service providers (Bowery Residents' 
Committee, Goddard Riverside and Common Ground Community) in 
partnership with the city's Department of Homeless Services and the 
local VA Thus far, we have been able to bring 240 veterans out of the 
cold and put them on a path to permanent housing. We estimate that only 
50 chronically street homeless veterans remain on our city's streets 
today, down from 300 veterans just 18 ago. This successful veterans 
outreach grant was the first of its kind nationally.
    In addition to tackling street homelessness, Robin Hood made a 
grant in April 2012 of $200,000 to Homeward Bound, Jericho Project's 
new program for moving low-income veterans into affordable, independent 
housing. With this grant, Jericho will help 60 homeless and unemployed 
vets connect to employment, financial counseling and entitlements, and 
ultimately secure permanent, affordable housing.
    Since July 2009, we have supported the Doe Fund, Inc.'s Porter 
Avenue veterans' shelter and employment program to connect homeless 
veterans with employment and permanent housing. Last year alone, 240 
veterans received temporary housing, with almost 70 of them securing 
permanent jobs and over 120 to permanent housing. Last year's grant was 
$100,000 toward case management staff. Since 2009, Robin Hood has 
granted Doe Fund $775,000 toward its veterans work ($475,000 of which 
was granted prior to the establishment of our Veterans Fund).
    Beyond our grant making, Robin Hood convened the HUD-VASH Boot Camp 
in August 2011 (ongoing) to support regulatory reform to expedite HUD-
VASH supportive housing process to house more homeless veterans by 
collaborating with city agencies, the VA, non-profits and the 
Interagency Council on Homelessness. So far these efforts have reduced 
by half the time for veterans to move into housing (to 123-181 days 
from 240-360 days).
Education:
    Education is a true path out of poverty, and we have invested 
$615,000 in two organizations to help keep vets on that path. The 
number of veterans enrolled at City University of New York's (CUNY) six 
community colleges has increased remarkably. In spring 2008, 299 
student veterans were enrolled at the six community colleges. The 
figure increased to 998 student veterans by spring 2010. However, only 
one in five veterans graduates from CUNY's community colleges within 
six years.
    Our grant to Project for Return and Opportunity in Veterans' 
Education (PROVE) is supporting veterans who are newly-enrolled college 
students, assisting them as they transition from military service to 
student life within the CUNY community college system. We have also 
made a grant to Iraq/Afghanistan Veterans of America, in partnership 
with the Mayor's Office of Adult Education, to help 150 OEF/OIF 
veterans avoid predatory for-profit colleges.
                    aligning the va with communities
    The Robin Hood investment in the veterans' space is one example of 
community resources available to veterans and their families. These 
programs, along with a much larger cohort of City, State, Federal and 
other privately funded programs, make up an impressive mosaic of 
supports that are accessible and appropriate to augment VA services. 
And despite some progress on the part of the Veterans Administration, 
our work in New York City leaves us to conclude that the VA operates in 
relative isolation; disconnected from public and private resources that 
are fundamental to the livelihood and health our Nation's veterans. 
Robin Hood asks the U.S. Senate and Veterans Administration to consider 
a deliberate shift as it pertains to community partnership and local 
resources.
    Fundamentally, government does not transition soldiers from 
military life to civilian life, and the VA fails to create a safety net 
for soldiers after discharge. The Department of Defense and the VA need 
to better support this transition. This would include a process to 
connect soldiers to jobs or college in advance of discharge and a 
commitment to facilitate timely benefits, housing and health care for 
our veterans that need help the most. And while we are hopeful that the 
DOD's redesigned Transition Assistance Program will improve the 
transition, we are also skeptical that the plans go far enough to 
ensure an effective safety net.
    Presuming that a full shift in the discharge process is unrealized 
in the near term, and considering the 2.4 million veterans already 
living a civilian life, the VA needs to develop a community 
``blueprint'' by which VA medical and social service staff can access 
local resources in a more deliberate and strategic way. As outlined 
above, the large majority of resources developed under Robin Hood's 
watch are not core deliverables managed by the VA, instead, we've 
focused on employment, education, housing placement, case management, 
benefit enrollment, and legal services. These programs, save the 
connection to VA benefits that are in some cases funded by VA 
subcontractors, fall outside of the scope of VA staff though are 
critical elements associated with veterans' transition and ongoing life 
outside of the military. These resources are largely funded by City and 
State government and are eligible to veterans and under utilized by 
veterans and their families. In each community, the VA needs to 
structure a process by which VA staff can smartly ensure that veterans 
access and enroll in these important programs that will complement the 
health care services made available by the VA. It is unrealistic to 
believe that a ``community plan'' will look the same in every 
community, though the VA should develop a set of criteria that 
establish these important connections, and local VA leadership should 
be evaluated on the effectiveness of these local partnerships with 
municipal government and private resources.
    To this end, this spring, Robin Hood, the city of New York, the 
business community, and the not-for-profit sector will pilot a first of 
its kind veterans collaborative in New York City, and we ask the VA to 
join our effort to develop the connective tissue between the VA and the 
broader NYC community. Our team has been formed over the last 18 months 
and stands ready to formally collaborate with the VA to revamp our 
shared goal of ensuring financial and physical health for our veterans. 
I ask that the VA commit today to our New York City pilot to create a 
first of its kind model for reintegration.

    On behalf of the entire Robin Hood community, thank you for your 
time and interest.

    Chairman Sanders. Thank you very much, Mr. Weingartner.
    Let me start off with kind of a simple, basic question. I 
think we all recognize that to do right by our veterans there 
has to be intensive cooperation by the VA and other Federal 
agencies, the non-profits, State and local governments.
    Ms. Spencer, has the VA done a good job in trying to 
coordinate those efforts? How is the relationship between the 
VA and those other entities?
    Ms. Spencer. Thank you, Mr. Chairman, for that question. We 
are currently having some very serious conversations with the 
VA about expanding the VetCorps model I mentioned to you in the 
State of Washington that is having such success in making sure 
that those who are enrolled in college today on the GI Bill 
graduate.
    We need them to be successful. This is a fabulous tool--the 
Post-9/11 GI Bill--and we need these veterans who decide to 
take advantage of this benefit to succeed.
    I serve on the Interagency Council on Homelessness which 
Secretary Shinseki currently chairs. I heard him recently talk 
passionately about this benefit of the Post-9/11 GI Bill and 
how he wants to see a higher rate of graduation as well.
    So, we are in very serious conversations with his team 
about how we can have an interagency agreement between the 
Corporation for National and Community Service and VA to scale 
and reach more veterans in college and have that peer-to-peer 
veteran.
    So, the desire is certainly there. The passion is there. I 
think they are doing well. I want to do more with VBA, the 
Veteran's Benefit Administration.
    Chairman Sanders. OK. Let me just ask that same question to 
Mr. Nee. Are you getting the cooperation that you need from the 
VA? What suggestions do you have as to how that effort can be 
improved?
    Mr. Nee. Thank you, Mr. Chairman. We work pretty 
cooperatively with VA, particularly at the national level. 
Secretary Shinseki has been very aggressive in terms of signing 
this MOU with the State directors and secretaries in order to 
continue that partnership.
    I think it has a lot of room it can grow in. I think we can 
demonstrate in collaboration with VA that when we serve 
veterans and veteran benefits and provide those benefits we do 
not just need to look at VA as the end-all/be-all for all 
veterans to go into.
    I mean, we certainly do not do that when it comes to public 
health. I mean, we all have individual public health, State 
departments, and city departments of public health. We do not 
just refer to, you know, the Health and Human Services 
Department of the Federal Government nor do we do that for the 
Department of Education.
    We should not do that for veterans either. Veterans have 
benefits and services that exist at all levels of government 
and can access, as the panelists have said here, many benefits 
and services through non-profits and other organizations.
    We take the approach in Massachusetts that when we serve 
veterans, we bring them the benefit buffet; and at the end of 
the buffet, we try to create a plate for them that makes sense 
for them.
    That will include some VA; that will include some other 
entries as well. But at the end of the day, we need to do a 
better job collaborating that.
    Chairman Sanders. Good. Thank you. Mr. Monroe, the same 
question to you. Are you happy with the cooperation that you 
are getting from the VA at this point?
    Mr. Monroe. Chairman Sanders, thank you for that question.
    We launched in October, you know. I consider us still in 
startup mode, so my main focus is building the infrastructure, 
if you will, around what we have and growing the Blueprint 
Communities.
    We do not have a requirement that a Blueprint Community has 
to be working with the local VA. As we sign them up, we walk 
them through a sign-up process and we ask them, are you working 
with the local VA? If you are, what are you doing? If not, why 
not?
    I can tell you that, off the top of my head, of the 44 I 
think about 60 percent have a good relationship at the local 
level.
    Once we are kind of up on plane a little bit more, I intend 
to try to reach out a little bit more to the VA and solidify 
that a little bit more. But right now, yes, everything at the 
local level seems to be working well.
    Chairman Sanders. Thank you.
    Mr. Weingartner, the same question.
    Mr. Weingartner. I think I would be less optimistic than 
some of my colleagues on the panel. I think that fundamentally 
the VA in New York City leaves on the table a set of 
collaborations that are so critical for the vets that they are 
serving and is fairly isolated.
    So, to push in whether or not it is the city of New York 
or----
    Chairman Sanders. Let me ask you. Let me pick up.
    Mr. Weingartner. Please.
    Chairman Sanders. You say they are fairly isolated. Are you 
suggesting that in New York City many veterans do not know 
about the benefits to which they are entitled?
    Mr. Weingartner. I think it is multifaceted. I think that 
is a condition. I think that vets that are being served by the 
VA probably need a broader swathe of services that are not 
provided by the VA, and then, in turn, when the VA has the 
attention of a vet that has a complex social service need, that 
they themselves are not uniquely positioned to fulfill that, 
and, in turn, do not know how to push back.
    So, I think it is a double whammy, you know. You have 
isolation from a health care perspective, but then, 
secondarily, you have a mosaic of human services that are 
publicly and privately funded that have nothing to do with the 
VA that are, I think, isolated from that structure.
    And, you know, I think that is a real massive loss of 
opportunity.
    Chairman Sanders. Thank you very much.
    Senator Burr.
    Senator Burr. Mr. Chairman, I think we are beginning to 
hear more and more that VA--from a standpoint of their delivery 
of services--maybe lacks the ability to reach out in a 
community-based way to figure out how much more they can bring 
to the table in providing the holistic approach.
    I think Mr. Weingartner clearly points that out, but we 
have heard it as it related to mental health, specific 
illnesses; and it is something I hope we are going to dig into.
    Wendy, I cannot let you be here without saying that I got 
your testimony at 11:06 p.m. last night. I take for granted 
that OMB had to sign off on your testimony. Is that correct?
    Ms. Spencer. Yes.
    Senator Burr. What changes did they make to your testimony? 
Any?
    Ms. Spencer. None, Senator. I am not aware of any 
particular changes. We were in concert.
    Senator Burr. OK. I hope you do not mind me asking. But you 
are held to the same standard that the VA is and we would 
expect that testimony to be here 48 hours in advance.
    Ms. Spencer. Thank you, sir.
    Senator Burr. Mr. Weingartner, I am particularly struck 
with the honesty that you have communicated with us. How can 
you find veterans in New York and the VA cannot?
    Mr. Weingartner. It has been--let me give you a little bit 
more background in terms of the answer. Robin Hood this year 
will grant $140 million to programs across a massive range of 
programming. The only set of programs where we will struggle 
around recruitment is with vets.
    Literally, every program we fund has a waiting list except 
for veterans. It is a really, really complex struggle. There 
are a lot of different approaches. Each program has their own 
plan to find vets. Some of it is through the VA, some of it is 
through the city of New York, some of it is through individual 
recruitment.
    And, part of it is that--for example, we augmented a city 
program with $700,000 to find 1,250 vets jobs. Jobs sell. So, 
we are marketing vets to find jobs. So, each one of these 
programs is literally clawing to fill the spaces with vets that 
can take part in it.
    Senator Burr. I am not taking a shot at the VA. But all of 
you have something unique. You are finding people that they are 
not finding. You are providing services to people that 
currently are not being supplied that service within the 
Veterans' Administration.
    I want to sort of take a different tact than the Chairman 
did because I do not want to plow ground that has already been 
plowed.
    What can we do to strengthen the partnership between you 
and the Veterans' Administration? Naturally, it would start at 
the beginning of any initiative that they went out on; and I 
would be curious to ask, has the VA reached out to you on their 
August campaign to say, here is what we are getting ready to 
do? We are launching this massive ad campaign and here is how 
you fit.
    Is there any dialog between you guys and the VA about how 
you fit and how your organizations supports what their mission 
is?
    Let me just backwards if I can.
    Mr. Weingartner. So, I think that is a big problem, what 
you are articulating; and from my perspective, I think it would 
go both ways.
    First, if a vet is in our purview in any of, say, the 30 
programs that we recently funded, it is incumbent on the VA to 
make it really, really easy for us to push them into services 
that are uniquely funded by the VA.
    Second, I would ask the VA to tell me, how do you 
demonstrate that every single vet that walks in this door has 
had some level of assessment and that the VA has established a 
partnership locally in literally every community where you 
would know that there is a warm handoff between the medical 
services and getting that vet a job and connecting that vet to 
food stamps and connecting that vet to housing? Because, 
literally, right now vets are walking in the door and there is 
no structure around the ability to handoff a vet into community 
programs which make up the vast majority of human services in 
any local community.
    So, I would have them report back to you on what exactly is 
their structural relationship between the resources that are 
local.
    So, I think Mr. Monroe talked a little bit about a 
Blueprint. Admiral Mullen, who is essentially our tutor in the 
veterans' space, basically indicated that you have to conceive 
of and implement a local approach that is unique, and the VA 
would have to master that in every one of their communities and 
they should be held accountable for that.
    Senator Burr. Just go down the line if anybody would like 
to comment on that.
    Mr. Monroe. Ranking Member Burr, thank you.
    For me, again, back to us being in startup mode--big VA, if 
you will--we have not had many touch points with them. I intend 
to get to where when I am up on plain reaching out with them. 
At the local level, I said a lot of the Blueprint communities, 
they are very nimble. They are small organizations. They are 
out there. They know where people are so they are able to 
make----
    Senator Burr. You are in 22 States. You are in an unlimited 
amount of communities, 44 communities, 22 States, 75 veteran 
lead corps. You are a major force in the non-profit world to 
supply services to veterans.
    Has the VA reached out to you and said, what is it you are 
doing so that we can figure out how it complements what we are 
trying to do?
    Mr. Monroe. Not yet, sir.
    Senator Burr. OK. Mr. Nee.
    Mr. Nee. Thank you, Ranking Member. I think what we see 
with VA is that the collaboration really exists. It depends on 
the medical center. It depends on the Vet Center. It is all 
local to local.
    So, if we have a Vet Center that is committed to working 
with the State, then we will do very well. When those veterans 
come in to get mental health services or VA specific health 
care services, they will then turn them over to us and we can 
do a benefits assessment to see what other State or local or 
non-profit benefits they are eligible for.
    I think when we look at national models, what I would hope 
is that we are not talking about the Federal Government seeing 
what we are doing and then adopting it themselves, but rather 
providing the States the resources to augment or increase their 
local models.
    For instance, Women Veteran's Networks, we have a very good 
one. We run it on a very tight budget, $75,000 a year. It is 
not a lot of money but it does a lot of great good.
    If VA were to make grants available for States to establish 
state-based Women Veterans' Networks, that would go a long way 
to its helping access benefits and services for women vets.
    Senator Burr. Let me just ask you on the program.
    Mr. Nee. Sure.
    Senator Burr. Has VA come to you and said, gee, this is a 
very interesting model. We would like to roll this out in 
communities across the country. Can you help us do that?
    Mr. Nee. They have a national Women Veteran's Network. They 
have not come to us specifically on our program, although we do 
collaborate pretty closely with them on getting women into VA 
health care services.
    Senator Burr. But the unique thing about what all of you 
have provided us is the re-enforcement that these community-
based programs are absolutely essential if the goal is to try 
to get everybody.
    Now, if the goal is only to get 40 percent, then that is 
one thing; but if the goal is 100 percent, is there anybody 
that realistically believes that it can be done without a 
partnership within the communities that the veterans live in?
    And, I think with the uniqueness of your program, it is 
more effective because it is community based.
    Mr. Nee. Correct. I do not believe if we just rely on VA to 
serve veterans in this country that we will reach all the 
veterans. I think in order for us to serve all the veterans in 
this Nation and their family members as well, we need to have 
tight and coordinated partnerships with State, local, and non-
profit organizations.
    Otherwise, you just cannot meet all the needs.
    Senator Burr. Mr. Chairman, you have been very generous. 
Thank you.
    Chairman Sanders. Thank you, Senator Burr.
    Senator Blumenthal.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you, Mr. Chairman, and thank you 
for holding this hearing.
    Thank you all for being here today and your excellent work 
in this very important area.
    I was interested, Ms. Spencer, in your discussion of 
reserving spaces for veterans in some of the volunteer 
programs; I think you mentioned Teach for America, Volunteers 
of America, and the Washington Conservation Corps.
    I wonder if you could provide some additional details as to 
other organizations that reserve spaces--what more can be done 
to provide those kinds of opportunities for veterans, and 
whether you think the veterans have been responsive to it?
    Ms. Spencer. Thank you, Senator Blumenthal.
    We are very excited about the progress. When the Serve 
America Act was signed 4 years ago, we had seen a huge interest 
in our veterans work because it has become a key priority in 
our work with veterans and military families.
    So, we are seeing the success in several ways. One is in 
the way which you have described us encouraging our grantees, 
our partners in the field, to reach out to veterans and 
military families as well, to recruit them to become AmeriCorps 
members or Senior Corps participants and also to become 
volunteers to serve alongside our formally enrolled AmeriCorps 
members or Senior Corps participants. That is one way.
    Another way is by adding more grantees with our annual 
Notice of Funding opportunity, increasing the number of 
grantees who are serving veterans. This will also grow the 
opportunity to serve as well.
    We are having very serious conversations. I just shared a 
few minutes ago with the VA about expanding a program called 
VetCorps which is helping veterans enrolled in college on the 
GI Bill succeed and graduate. We need them to graduate, and 
this is a program where we have veterans who are AmeriCorps 
members serving other veterans.
    That is a real sweet spot of success for us because we then 
have that peer-to-peer connection. They understand what they 
are going through. They can relate. We are seeing a lot of 
success. And that also applies to family members, because 
family members also understand the life of a veteran.
    So, we are aggressively reaching out to our partners, our 
grantees, Veteran Service Organizations, working even with 
other Federal agencies. We have just announced a partnership 
with the National Guard Bureau where we are going to place 
AmeriCorps-VISTAs in every State Guard Bureau in the country 
that would like them to support veterans and military families 
with their economic needs.
    We, hopefully very soon, are days away from signing an 
interagency agreement with the Department of Labor, and where 
this will work is our Senior Corps participants from RSVP will 
reach out and help transitioning servicemembers get a job, help 
them with job training, job skills, counseling.
    So, there are endless the ways that we can work. We are 
working right now. We have five million volunteers--AmeriCorps 
member or Senior Corps participant--opportunities.
    So, there is not a stone we are not turning over for 
reaching out and including them.
    Senator Blumenthal. You mentioned VetCorps?
    Ms. Spencer. Yes. VetCorps in Washington State.
    Senator Blumenthal. Is it just in one State right now?
    Ms. Spencer. Well, that particular program labeled VetCorps 
is in the State of Washington where we currently have about 
50--it is growing--50 veterans or military family members 
serving in every public college in the State of Washington, 
reaching out and working. Last year, they served 7,100 
veterans.
    Senator Blumenthal. There are similar organizations around 
the country.
    Ms. Spencer. Right. There is one in Georgia, Piedmont 
College, which is a very similar model. We are encouraging 
other grantees to consider this as a great model also.
    Senator Blumenthal. I appreciate what you said about 
veterans helping other veterans which seems to be the most 
productive way to help veterans, something about that common 
experience or bond that I think is almost irreplaceable. And I 
wonder if there is more that we can do to enlist veterans in 
these programs, either part-time or full-time.
    Ms. Spencer. I think there is, and it is working with my 
colleagues here today. It is working with other Federal 
agencies like the VA, Department of Labor, National Guard 
Bureau, and others who are interested in this. It is getting 
that word out.
    But we have, as I mentioned, 5 million either volunteers or 
AmeriCorps members or Senior Corps participants who are 
passionate about this. We are in 70,000 locations across the 
country.
    So, we have got the capacity. We have offices in every 
State. We have State commissions, Governor-appointed State 
commissions we work with very closely. All have our same goal: 
to help these 1.5 million veterans returning in the next 5 
years, and those who have already returned home who need our 
help.
    Senator Blumenthal. Thank you.
    Thank you very much, Mr. Chairman.
    Chairman Sanders. Thank you, Senator Blumenthal.
    Let me just conclude by reiterating what I think you have 
heard from every Member here. We appreciate that if we are 
going to do justice for all veterans--the older veterans and 
those who are just returning--we are going to need a level of 
cooperation, a very strong level of cooperation between the VA 
and other Federal agencies as well as non-profits and State 
agencies throughout the country.
    You are here today because in many ways you are models of 
what we would like to see. I just want to personally thank all 
of you for the great work that you are doing. We look forward 
to working with you in the future.
    This hearing is adjourned.
    [Whereupon, at 11:34 a.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              


   Prepared Statement of Martin Caraway, Legislative Chair, National 
            Association of County Veterans Service Officers
    Mr. Chairman, Members of the Committee, and staff: It is truly my 
honor to present this written testimony for this hearing. As 
Legislative Chair of the National Association of County Veterans 
Service Officers, I am submitting this testimony to comment on:

        The issues regarding outreach services to veterans of military 
        service of the United States of America.

    The National Association of County Veterans Service Officers is an 
organization made up of local government employees. Local government 
employees that believe we can help the Department of Veterans Affairs 
reduce the number of backlogged benefits claims, while also providing 
critical outreach activities to educate veteran's and eligible 
dependents in rural and metropolitan areas alike.
    Our members work in local government offices, in 37 States and 
currently are comprised of 2,400 full time employees in 700 
communities. Every veteran, their dependents and their survivors who 
live in our respective jurisdictions are all our clients. We serve them 
at no cost to the client. We are equipped to handle, and ready to 
assist veterans one on one, with every Department of Veterans Affairs 
benefit, and every state and local benefits. The reason we are here 
today is to assist the Department of Veterans Affairs' and Chairman 
Sanders' initiatives in providing quality outreach to our veteran 
community.
    There are over 22 million honorably discharged veterans of the 
Armed Forces of the United States. During the course of their life 
after the military they may have occasion to file a benefits claim for 
pension or compensation. Most veterans are not members of a Veterans 
Service Organization, but chances are that they live within one of our 
communities served by a State, County, or City Veterans Service 
Officer. In many cases the citizens of our communities believe that we 
are the VA.
    When military members leave the armed services they all have heard 
of the VA, and may be aware of some of the benefits they are entitled 
to, yet upon arrival to their home state they do not necessarily know 
how to actively pursue those benefits. Outreach has, for many years, 
been a focus of the National Association of County Veterans Service 
Officers. We define outreach as ``the act or process of reaching out in 
a systematic manner to proactively provide information and services and 
benefits counseling to veterans, and to the spouses, children, and 
parents of veterans who may be eligible to receive benefits under the 
laws administered by the Secretary of Veterans Affairs; and to ensure 
that such individuals are fully informed about, and assisted in 
applying for, any benefits and programs under such laws.''
    We believe that our members are in the perfect situation to 
meaningfully reach out to our Nation's veterans. We are already there 
in 37 States with 2,400 full time employees in 700 communities. It 
makes sense to utilize these existing government employees, who are 
employed by their local governments to provide the desperately needed 
services to our returning military veterans. Many of our members are 
fully accredited with the Department of Veterans Affairs, have attended 
and successfully completed Training, Responsibility, Involvement and 
Preparation of Claims (TRIP) training and have had a background check 
performed on them as a condition of employment.
    There has been much cooperation between the Federal, State and 
Local Government over many years. There are cooperative Memorandums of 
Understanding (MOU) with the Department of Agriculture, Department of 
Justice, and other Federal arms of government routinely signed every 
year. Many Federal agencies provide funding to local agencies to assist 
them with Federal responsibilities. The United States Forest Service 
cooperatively works with local jurisdictions to safeguard the resources 
on the National Forest. The Drug Enforcement Administration provides 
funding to local law enforcement agencies to expand their impact in the 
war on drugs. Federal funding of local agencies is widely used and 
accepted throughout the United States and could be easily expanded to 
include the Department of Veterans Affairs.
    In this day and age of our great nation it is unthinkable that a 
young man or woman enters the military service, serves honorably, and 
then upon discharge finds difficulties in obtaining the rights and 
benefits that they earned through service and sacrifice. It is our 
responsibility, the people of the United States, to live up to that 
promise of a better and brighter future. That promise includes a myriad 
of veterans benefits should the servicemember become injured in defense 
of freedom; but also includes an underlying premise that says if you 
serve your country with honor, your country will be there to serve 
you--not with a handout, but with a hand up. Together we must develop a 
mechanism for solutions so that veterans are able to return and earn 
their part of the American Dream.
    The National Association of County Veterans Service Officers is 
grateful for this opportunity to testify to this Committee. We 
recommend that this Committee look into ways to expand services to 
veterans by utilizing local governmental agencies. This concept has the 
potential to make a significant difference in the lives of returning 
veterans and will afford them a better opportunity to obtain their 
earned benefits, in a timely manner. Thank you for your time and 
attention.
                                 ______
                                 
 Prepared Statement of Sherri L. Brown, Senior Vice President, Service 
                to the Armed Forces, American Red Cross
    Chairman Sanders, Ranking Member Burr, and distinguished Members of 
the Veterans' Affairs Committee: I would like to commend the Committee 
for holding this hearing on Veterans Affairs Outreach and Community 
Partnerships and I appreciate the opportunity to submit this written 
testimony on behalf of the American Red Cross.
    The American Red Cross shelters, feeds and provides emotional 
support to victims of disasters; supplies about 40 percent of the 
Nation's blood; teaches skills that save lives; provides international 
humanitarian aid; and relevant to this testimony, supports military 
members and their families.
    The American Red Cross has supported servicemembers, veterans and 
their families for more than a century. Our military and veteran 
services are our oldest, most foundational and cherished mission passed 
down through generations. As a veteran myself, I am honored to support 
this mission today.
              general overview of support for our veterans
    The Red Cross began providing service to veterans in 1917, when we 
opened the Institute for Crippled and Disabled Men in New York City. 
The Institute specialized in occupational training for those returning 
from World War I with missing limbs. As the war ended, more programs 
were introduced to address the large number of maimed and disabled 
Veterans returning to civilian life. To aid their needs, innovative 
occupational therapy and recreational programs were implemented in 
Veterans Hospitals.
    When the United States Veterans Bureau was established by Congress 
in August 1921 as the official agency responsible for the care of 
veterans, Red Cross support of ill and injured veterans continued 
through the Hospital and Recreation Corps, the Junior Red Cross, and 
what later became known as the Gray Lady Service of uniformed volunteer 
nurses.
    Today, our work with veterans continues and includes emergency 
services such as emergency communications and financial assistance: 
support for the wounded, ill and injured in VA medical facilities and 
local communities; reintegration and resiliency support; and providing 
opportunities for volunteerism. Our network is far-reaching and 
available around the clock.
    Red Cross offices across the country and around the world 
participate in education and outreach events throughout the cycle of 
military service. Beginning with new recruits at Military Entrance 
Processing Stations, pre-deployment briefings, welcome home events, 
family days, and others, we get the word out on how to reach the Red 
Cross and what types of support we can provide. We are there for 
community based outreach events in partnership with Veteran Service 
Organizations such as the American Legion, Veterans of Foreign Wars, 
Disabled American Veterans, and their Auxiliaries; fraternal and 
service organizations such as the Elks, Lions, and Rotary; faith-based 
organizations and others.
    The Red Cross is able to provide these important services through 
employees and volunteers who work alongside the military community 
across the country and around the world. This includes a network of 
1,200 Red Cross offices both on installations and in communities across 
the country. Currently, we also have staff and volunteers serving with 
deployed servicemembers in Afghanistan, Djibouti, and Kuwait.
    A cornerstone of Red Cross support to the United States Armed 
Forces is our emergency communications services. When a military family 
experiences a crisis, the American Red Cross is there to help. Wherever 
their military service takes them, servicemembers can rest assured that 
the Red Cross will deliver notification of an emergency such as the 
death or serious illness of an immediate family member, as well as the 
good news of the birth of a servicemember's child or grandchild. 
Twenty-four hours a day, 365 days a year, the Red Cross relays urgent 
messages containing accurate, factual, complete and verified 
descriptions of the emergency to servicemembers stationed anywhere in 
the world, including on ships at sea and at embassies and remote 
locations. During fiscal year 2012, the Red Cross provided over 320,000 
emergency communication services to 131,000 military members and their 
families, including nearly $7 million in financial assistance to more 
than 6,000 families on behalf of the military aid societies.
    In addition to our emergency communications services and support to 
servicemembers on installations, the Red Cross has two resiliency 
courses to assist servicemembers, veterans and their families with the 
challenges of deployment. Both of these psycho-educational courses are 
led by independently licensed mental health volunteers and are 
available to anyone impacted by a military deployment--particularly 
those who directly support the servicemember, such as spouses, parents, 
siblings and significant others, and includes all branches of the Armed 
Forces. The courses are offered through Red Cross offices in the United 
States, its territories and through installations in the European 
region.
    Coping with Deployments: Psychological First Aid for Military 
Families was launched in October 2008 to assist military family members 
before and during a deployment cycle. The skill building course teaches 
family members how to strengthen their ability to successfully respond 
to challenges that they may encounter when a loved one is away. The 
course also explains how to support others experiencing stressful 
feelings or events. Since 2008, approximately 4,500 people have 
participated in the instructor-led course.
    In September 2011, the Red Cross launched Reconnection Workshops, a 
series of small-group, interactive courses for military families that 
focus on reintegration following deployment. The course was developed 
with the assistance of the Walmart Foundation and consists of five 
different topics that servicemembers and their families identified as 
critical to the reintegration period: managing anger, communication 
techniques, identifying depression, understanding and supporting the 
needs of children, and recognizing issues around stress and Traumatic 
Brain Injury. The Red Cross has reached nearly 4,000 people with this 
course.
    In short, we work at the community level to ensure the veteran and 
his or her family knows what resources are available to them in their 
hometown, that our efforts reflect their needs, and the community is 
working together to serve them.
                community based partnerships and the va
    The Red Cross does much of our work through partnerships. The 
strong relationships we have with the Department of Defense, the 
Department of Veterans Affairs and the many other local and national 
non-profits who serve the military community are invaluable to our 
mission. An important facet is ensuring that what the Red Cross 
provides is both relevant to those we serve, and also complementary to 
the government and other community resources available. I cannot over-
emphasize that no one organization can provide everything that a 
veteran and his or her family may need. Each organization brings 
something unique to the table, and we must continue to work closely 
together to ensure the assistance is well placed and reaches those who 
need it.
    The Red Cross works closely with the Department of Veterans Affairs 
(VA). The Red Cross is one of six charter members when Veterans Affairs 
Volunteer Services (VAVS) was formed in 1946, and proudly stands as a 
leader among more than 7,400 local and national organizations. We are 
classified as a Servicemember (voting) Organization, which requires a 
minimum of participation on 30 VAVS advisory committees. Additionally, 
we hold a seat on the VAVS Executive Committee (EC). Red Cross Chapters 
nationwide have representatives on more than 90 VAVS Advisory 
Committees and provide services in 139 VA Medical facilities.
    In addition, more than 900 Red Cross volunteers work an average of 
80,000 hours in VA facilities annually and are active in every aspect 
of the VA Voluntary Service program. Red Cross volunteers contribute in 
a number of ways, including Red Cross College Clubs creating mobile 
gardens for Community Living Centers; youth interviewing patients for 
the Library of Congress Veterans History Project; Veterans helping 
Veterans get to medical appointments through the Volunteer 
Transportation Program; and licensed medical professionals giving their 
time to those who served our country.
    In March 2012, Red Cross volunteer, Joy Neulieb, from Battle Creek, 
Michigan, received the VA Volunteer Services Committee Female Volunteer 
of the Year Award for her services in the Community Living Center, In 
Patient Mental Health and Therapeutic Recreation Section of the Battle 
Creek Michigan VA Medical Center. Ms. Neulieb is a shining example of 
Red Cross in action.
    Our work with the VA extends beyond serving those veterans in a VA 
hospital facility. The VA Crisis Line connects veterans with qualified 
VA responders through a confidential hotline. Through our partnership 
with the VA, we recognized that collaboration between our Emergency 
Communications Center and the VA Crisis Line could literally help save 
lives. More than once a day (478 times last year), the Red Cross 
Emergency Communications Center receives calls from family members 
seeking our intervention when a servicemember or veteran has indicated 
they might harm themselves. Now, when the VA Crisis Line receives a 
call concerning someone on active duty and they cannot quickly locate 
the individual, the Red Cross is immediately brought in to assist by 
working with the military. Additionally, we work closely with the VA 
Crisis Line in situations where the Red Cross is contacted concerning a 
veteran to provide immediate and compassionate assistance.
    Through a network of Veteran Service Officers, the Red Cross 
assists veterans, widows, widowers and dependents with the preparation 
and submission of claims and at the Board of Veterans' Appeals office 
in Washington, DC.
    The Red Cross also acknowledges the tremendous resource our 
veterans are to the work force. The American Red Cross Military 
Outreach Program is designed to build a robust pipeline of talent from 
the veteran and military spouse communities and hire qualified 
candidates to support the mission of the organization. In 2012, the Red 
Cross set an aggressive goal to hire 1,000 veterans by the end of 2014. 
This commitment includes not only placing veterans in appropriate 
positions, but also developing training and transition programs for 
servicemembers and spouses.
                    partnerships and pilot programs
    Red Cross collaboration to support veterans also extends beyond 
those ties we have with the VA. Several years ago, a coalition of more 
than 50 non-profit and government leaders got together to discuss how 
we could better work together and really make a difference for the 
military and veteran communities. One effort that developed from the 
meeting was rooted in what so many of us have seen at the local level--
that is, building powerful community coalitions to deliver tremendous 
benefits. This initiative is now called ``the Community Blueprint 
Network.'' The Community Blueprint is a set of tools and practices that 
provide a framework for communities to produce positive, measurable 
outcomes for veterans, military members and their families. It is 
administered by our partner, the Points of Light Institute, under the 
leadership of my colleague, Mike Monroe.
    The Red Cross is sponsoring one of the Community Blueprint pilot 
sites in South Florida. The coalition is focusing on reintegration for 
veterans by helping bridge the gaps that can sometimes exist between 
leaving the military and returning to the community. The program 
focuses on the individual veteran by assessing their needs and 
developing an individual plan which may include peer support, 
assistance for health, education, employment, and other issues. The Red 
Cross does not provide all these things by itself, but works with our 
partners to ensure the veteran gets what he or she needs. For example, 
all veterans who participate in the program are assisted with 
registration for VA benefits, and those requiring assistance beyond 
those services offered by the VA are connected with one of our 
partners.
    The Metropolitan Atlanta Chapter of the American Red Cross is also 
supporting a Community Blueprint initiative with the charge of becoming 
the conduit for veterans to gain access to the full range of support 
available to them. This coalition consists of a group of over 40 
agencies including national entities such as Goodwill Industries, the 
VA Regional Office, United Way 211, as well as local organizations like 
Hope Atlanta and Warriors 2 Citizens.
    Several Red Cross chapters have formed strong state and local 
partnerships to provide support to the veteran community. Through a 
state AmeriCorps program, the American Red Cross Southern Arizona 
Region engages AmeriCorps members to reach the military community and 
provide Red Cross services including recruiting other volunteers, 
sharing the overall Red Cross message, helping with development/
fundraising, volunteering at the VA hospital, and acting as a force 
multiplier on military installations.
    The Southern Arizona Region, with support from a Supportive 
Services to Veterans and Families grant from the Department of Veterans 
Affairs, initiated a program to help prevent and address veteran 
homelessness. The program is staffed by individuals specializing in 
intake, housing, finance, employment outreach and other areas to 
provide a temporary bridge of support leading to self-sufficiency 
through employment or receipt of VA and/or other entitlements they may 
be due. This support may come in the way of financial assistance with 
rent, utilities, moving related and other expenses, and case management 
services to assist with receiving VA and other local-community based 
support.
                               conclusion
    Thank you again for the opportunity to submit this testimony. These 
are just a few examples of how the Red Cross has been called to action 
in partnership with community-based organizations as well as with the 
VA and other government agencies. We are pleased to work with our 
partners in the VA as well as our partners in the non-profit, 
government and private sectors and are working hard to improve 
efficiencies and to increase individual and community awareness.
    Finally, support for our veterans is and will remain steadfast. As 
the US Armed Forces withdraw from Afghanistan and more servicemembers 
transition to civilian life, it will be more important than ever that 
we all continue to work together to meet the needs of the changing 
veteran community. The Red Cross is committed to working side by side 
with the VA and other organizations to provide the network of support 
our veterans deserve.

    I am pleased to address any questions you may have and look forward 
to working with members of Senate Veterans' Affairs Committee and 
others to support our veterans and their families.
    Thank you.
                                 ______
                                 
Prepared Statement of J. Michael Haynie, Executive Director, Institute 
        for Veterans and Military Families, Syracuse University


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 ______
                                 
Prepared Statement of David W. Sutherland, Colonel, U.S. Army, Retired 
 Chairman and Co-Founder of Staff Sergeant Donnie D. Dixon Center for 
        Military and Veterans Community Services (Dixon Center)
    Chairman Sanders, Ranking Member Burr and Members of the Committee, 
Thank you for inviting me to share my views and ideas on how our 
country can better assist America's veterans through community 
partnerships. This is a topic I am very passionate about and so I 
appreciate the opportunity to address this distinguished panel. My name 
is David Sutherland and I am the Chairman and Co-Founder of the Staff 
Sergeant Donnie D. Dixon Center for Military and Veterans Community 
Services (Dixon Center), a catalyst for bringing community leaders, 
organizations and service providers together to help integrate and 
strengthen local services for veterans and military families. I also 
speak today as a veteran of the United States Army with 29 years of 
service, including multiple deployments during Operation Desert Shield/
Desert Storm and Operation Iraqi Freedom. I retired in 2012 as a U.S. 
Army Colonel where my final assignment was as the Special Assistant to 
the Chairman of the Joint Chiefs of Staff. In that position, my 
principle focus was on Warrior and Family Support.
    My military service over two wars informs me about the difficult 
challenges facing America's veterans and motivates me to help empower 
returning servicemembers, military veterans, their families and the 
families of our fallen to achieve their capacity for greatness. This 
generation, like all generations of veterans, is wired to serve. And 
they have served with distinction against enormous challenges. Most 
returning servicemembers and their families have not known a time when 
we haven't been at war, preparing for war or coming home from war. 
During the last 11 years of my Army career, I spent a cumulative three 
years at home. Of course, war has had an impact on America's military 
veterans and their families. But I have no doubt they will thrive. They 
just need a little help during transition to get them started and they 
will achieve great things. They represent the best of our society. In 
my work with the Joint Chiefs of Staff and my advocacy through Dixon 
Center, I am convinced that the answers to the challenges facing our 
country's veterans already exist in our neighborhoods and communities. 
The goal for this Committee and for all Americans should be to increase 
community involvement and promote community-based services through 
public-private partnerships to advance education, employment and access 
to health care for veterans and their families.
The Story of Mervin:
    Mervin Roxas is one of those veterans on the road to greatness 
thanks to a little community support during his recent transition. 
Mervin was born in the Philippines but moved to the United States with 
his family when he was a teenager. Motivated to serve his adopted 
country following the attacks on September 11, Mervin joined the United 
States Marines and was twice deployed to Iraq. On his second tour of 
duty, Mervin was seriously injured when an improvised explosive device 
(IED) blew up his patrol vehicle. He was riding in the top position 
manning the vehicle's machine gun. The bomb ripped off his entire left 
arm and part of his shoulder and shattered his jaw and cheekbone. Three 
Marines died from injuries caused by the IED explosion. That was 
July 5, 2004; Mervin was only 21 years old. He was evacuated out of the 
war zone and later to Walter Reed Army Medical Center in Washington, 
DC, where he spent 11 months in specialized medical care and 
rehabilitative services. The military awarded Mervin the Purple Heart 
for his service. After being medically discharged from Walter Reed, 
Mervin returned to California to be with his family and to restart his 
new life. But Mervin struggled early on in his transition. He no longer 
had easy access to the supports and resources readily available to him 
throughout his military career. He and his family had to navigate the 
social service and government systems on their own, with little support 
or guidance. ``The direction I was used to in the military wasn't there 
for me,'' Mervin said, ``I was basically let loose in the civilian 
world after being discharged with little direction. It was pretty tough 
to cope with at the beginning.'' Mervin also had to deal with the new 
changes to his life as a result of his disability. His dream of 
becoming a police officer was finished and his hopes for the future 
were diminished. ``I was angry about the situation, confused, and I 
guess kind of depressed as well,'' Mervin said.
           veterans just need a little help during transition
    Mervin's early struggles to cope with his new life and his initial 
challenges during transition are not unique. Veterans can struggle with 
isolation and the negative stigma often associated with veterans of 
war. Stories similar to Mervin's can be found throughout the country. 
The personal struggles may vary, but generally involve mental health 
stress, unemployment, homelessness, broken relationships, or substance 
abuse. Consider these statistics:

    <bullet> Young veterans, ages 20 to 24, who served during Gulf War 
era II had an unemployment rate of 29% in 2011, higher than that of 
young non-veterans (18%), according to the U.S. Bureau of Labor 
Statistics. In addition:

         - 24% of veterans are unable to find a job that matches their 
        skill level;
         - 11% are unable to find a job that matches their education 
        level;
         - Almost two-thirds of those employed are unsatisfied with 
        their work and report that they aren't using their skills and 
        abilities; and
         - 44% of part-time workers could not find full-time 
        employment.

    <bullet> Over one-third of servicemembers from Operation Iraqi 
Freedom and Operation Enduring Freedom (OIF/OEF) suffer from post-
traumatic stress (PTS) and mild Traumatic Brain Injuries (TBI), 
according to a recent RAND study. These are the signature wounds of 
these wars.
    <bullet> More veterans have died by suicide since 9/11 than in 
combat in Iraq and Afghanistan combined. Women veterans are 2-3 times 
more likely to commit suicide than non-veteran women, according to an 
Oregon Health and Science University study.
    <bullet> Twelve percent of all homeless veterans are OIF/OEF 
veterans, according to the National Coalition for Homeless Veterans.

         - 33% of the male homeless population are veterans;
         - 67% served three or more years; and
         - 76% experience alcohol, drug or mental health problems; and
         - 20% of female veterans are homeless.

    <bullet> About 1.5 million other veterans are considered at risk of 
homelessness due to poverty, lack of support networks, and dismal 
living conditions in overcrowded or substandard housing.

    The personal stories of heartache and struggle--combined with these 
and other harsh statistics--should motivate all leaders and citizens to 
examine new solutions to address the transition needs of our returning 
servicemembers and veterans. The drawdown of troops from Iraq and 
Afghanistan accelerates the challenges and widens the gaps in 
transition services for veterans and their families. Each year, the 
military discharges or demobilizes, on average, 350,000 servicemembers 
or roughly the population the size of the city of St. Louis. However 
these men and women--many who have confronted multiple deployments and 
combat tours--will not return to a single metropolitan area. Instead, 
they will return to their hometowns or other communities across the 
country. U.S. Department of Veterans Affairs (VA) data shows that U.S. 
veterans live in more than 3,100 counties that represent rural areas, 
like Calhoun County, Arkansas, or urban areas, like Cook County 
(Chicago), Illinois. Even those who generally look to the Federal 
Government (Department of Veterans Affairs) as the sole answer in 
addressing veterans' needs realize that the geographic diversity and 
the expected spike in the veterans' population (1 million over the next 
5 years) require a new approach and a new way of thinking. There is 
only so much the government can do, alone.
    The solution to these complex challenges already exists within the 
communities our veterans come home to--because the best remedy to 
defeating the stresses from combat for our veterans is finding a 
community and ``fitting in.'' More than anything else, veterans--myself 
included--want to be connected to community. Communities are the center 
of gravity; they solve the problems, provide the leadership, develop 
the solutions, offer empathy and provide the continuum of care. 
Communities are critical to our country's ability to do right by the 
veterans who have bravely worn the uniform. Based on my extensive 
outreach over the past five years, both as the Special Assistant to the 
Chairman of the Joint Chiefs of Staff and in my current role as 
Chairman of Dixon Center, I have seen first-hand the ``sea of 
goodwill'' that exists across the country. The American people share a 
tremendous desire and commitment to serve our veterans, military 
families, and the families of the fallen.
    Unfortunately, a disconnect exists within these communities. Many 
communities and their leaders may know what the military is, but they 
don't know us. Less than one percent of the American public has ever 
served in the U.S. Armed Services. Many communities--their leaders, 
residents and services providers--have made services for veterans and 
military families a top priority, but often they are encumbered by 
bureaucracy and denied access to service resources by the very 
government entities charged with caring for and supporting U.S. 
veterans. As a result, veterans and their families become more isolated 
from essential services and supports and their reintegration struggles 
continue, often leading to new concerns that negatively play out in 
their relationships, families, workplaces and communities.
           communities working together on behalf of veterans
    Mervin, the young Marine I told you about earlier, is now fully 
contributing in his California community and achieving greatness. His 
U.S. Marine Corps training taught him to be courageous, decisive, and 
resilient. So he took the initiative to explore his community and find 
or develop his own supports. He enrolled in classes at a local college 
and looked for opportunities to volunteer in the community. Mervin 
admits his transition to college was difficult at first. ``In the 
beginning, I had a hard time dealing with the new environment with the 
other students and people who didn't really understand me or my 
situation. It took about a year to realize that I had to adjust 
myself.'' Mervin tapped into a community of other student veterans at 
his college. This informal support system, which later grew to include 
non-veteran friends, was there when he needed someone to talk to. 
``They understood. They were there to help, but they didn't pretend to 
know the answers to my problems,'' he said.
    One day while at college, Mervin stumbled upon a job fair and 
decided to see what employment opportunities his community had to offer 
a decorated veteran. Mervin is representative of the new generation of 
veterans I mentioned earlier that is wired to serve. He was drawn to a 
booth staffed by Easter Seals Southern California. Easter Seals 
provides services to help children and adults with disabilities and/or 
special needs as well as support to their families for nearly 100 
years. Today, Easter Seals assists more than one million individuals 
and their families annually through a network of more than 70 
affiliates that operate more than 550 Easter Seals service sites across 
the country. Each affiliate provides top-quality, innovative services 
tailored to meet the specific needs of the people we serve. Mervin was 
also attracted to Easter Seals' national commitment to veterans and 
military families. ``We just kind of clicked,'' Mervin recalled. But 
there was one problem: he didn't have his resume, at least not with 
him. The Easter Seals representative saw special qualities in Mervin 
and told him to send his resume to his office as quickly as possible. 
By that evening, Mervin had faxed his resume to Easter Seals and, soon 
after, he was hired as a Life Skills Coach--teaching life skills to 
adults with developmental disabilities. The extra little help he 
received at the job fair started him on the path toward success. He has 
since gotten married, been promoted at work, and ran a marathon--
raising money for a local veterans support program as a way of giving 
back to the community that had supported him in his transition to 
civilian life. Mervin, now 30, did not need much of a push to get him 
going. The community supports and assistance he needed, he found on his 
own. Sometimes the community support was as simple as the routineness 
of everyday life in his hometown. ``When I returned, I went to the same 
barber I had been going to since I was in high school. We'd just make 
conversation, talk about events in the news, how things were going--the 
usual things,'' Mervin said. ``Even that simple connection to people 
outside the military, having that routine, going to a place where I 
knew people. Just those little things really do make you feel connected 
to your community.''
    Other veterans may require intensive services and supports or 
additional assistance in connecting to community and government 
programs. To help meet these needs, thousands of new nonprofit 
organizations have formed over the past decade. In addition, existing 
community organizations have developed new programs or reprioritized 
services to meet the emerging transition needs of veterans and military 
families that, in many cases, are going unmet due to the Federal 
Government's disappointing response to this underserved population. For 
example:

    <bullet> Student Veterans of America (SVA) was formed after the 
passage of the Post-9/11 G.I. Bill when many OEF/OIF veterans started 
school and found that their campuses were unprepared to support them as 
they pursued their education. Since 2008, SVA has provided programs, 
resources, and support to the ever-evolving network of local student 
veteran organizations. I serve on the SVA Board of Directors and work 
closely with the chapter leadership across the country to affect change 
and generate action.
    <bullet> The ``Community Blueprint'' is a roadmap for local 
communities across America to address the most common challenges facing 
Veterans, returning servicemembers and their families by transforming 
goodwill into service. The Community Blueprint is a set of tools and 
practices that provide a framework for communities to produce positive, 
measurable outcomes for veterans, military members and their families.
    <bullet> Allies in Service is a 501(c)(3) nonprofit organization 
dedicated to serving our veterans, servicemembers and their families as 
they reintegrate back into the Dallas community. Under the leadership 
of Roger Staubach, they have developed a community-based model to 
improve the overall quality of life for Dallas-area veterans.
    <bullet> Utility Workers Military Assistance--UMAP National Effort 
is designed to assist those men and women transitioning from the 
military into the civilian sector with gainful career opportunities in 
the Utility Workers sector and other labor affiliated program 
opportunities. In addition to workforce development and assistance UMAP 
provides support to their own military veteran members and their 
families. On a national level they partner with the military affiliates 
from all branches and work shoulder to shoulder with those on a 
national base that have developed and will continue to provide support 
to our veterans, Guard and Reserve candidates and their families.
    <bullet> Charlotte Home Bridge helps Charlotte veterans 
successfully transition home after military service by identifying 
their education, employment and healthcare needs and connecting them to 
available community, state and Federal resources. The result of this 
works results in: veterans and their families in successfully pursuing 
their dreams of building a healthy and productive life in the Charlotte 
region; community benefits from their leadership and commitment; and a 
reduced drain on community resources.
    <bullet> The International Brotherhood of Teamsters formed its 
Helmets to Hardhats (H2H) program and Teamsters Military Assistance 
Program (TMAP) to connect highly trained, unemployed veterans with 
training and career opportunities in the construction industry. Under 
TMAP, veterans and Guard and Reserve members can receive, at no cost, 
apprenticeship and other training that leads to industry credentials. 
The Teamsters, like other organizations, found the high unemployment 
rate among veterans, particularly among the OIF/OEF generation, 
unacceptable and developed their own programs to compliment government 
efforts.
    <bullet> The Welcome Back Veterans Initiative was formed in 2008 by 
Major League Baseball Charities, the McCormick Foundation and the 
Entertainment Industry Foundation to ensure veterans suffering from 
posttraumatic stress and their families had access to mental health 
education and treatments backed by cutting-edge research at our 
Nation's University Hospitals. These organizations were motivated by 
the newspaper headlines addressing the mental health challenges of our 
returning servicemembers and developed and funded this effort to help 
address the long delays or gaps in mental health services at the VA and 
the Department of Defense.

    The emergence of these new military and veterans' organizations and 
service initiatives (while well-intentioned) has created two new 
problems that can further impede the ability of veterans and returning 
servicemembers to access transition assistance. First, there is no 
reliable, community-based coordination mechanism to integrate and 
consolidate community services so that veterans and military families 
aren't simply bouncing back and forth between bureaucratic mazes. 
Second, Federal policies and operating procedures make it difficult, if 
not impossible, for qualified new and well-established community 
organizations to access Federal resources or assist Federal agencies in 
serving the veterans and families in their communities. The Senate 
Veterans' Affairs Committee can play a meaningful role in each of these 
areas.
                 coordinating community-based services
    During my work with the Joint Chiefs of Staff, I was introduced to 
numerous military and veterans' programs in communities across the 
country that achieved great results. However, I quickly learned that 
these programs, even the ones in the same community, were not aligned 
with each other or other services in the community. I would meet with 
community leaders and executives of community organizations who 
recognized the fragmentation and conceded that better coordination 
would result in more effective services and better stewardship of the 
scarce resources. It became clear that a clearinghouse for 
collaboration, consolidation, communication, lessons learned and 
innovative practices was necessary to help advance a holistic approach 
centered on education, meaningful employment and access to health care. 
I co-founded the Center for Military and Veterans Community Services to 
facilitate this community alignment, coordination and consolidation of 
new and existing community services. I named the center after a career 
solider I served with in Iraq, Staff Sergeant Donnie D. Dixon, who was 
killed during his second tour of duty in Iraq. Between my work as a 
direct report to the Chairman of the Joint Chiefs of Staff and the 
Dixon Center launch in May 2012 my team and I have worked with over 550 
communities and cultivated a network of 20,000 organizations and like-
minded individuals through community convening sessions, one-on-one 
consultations and direct collaborations, partnerships and 
consolidations of networks. This provides an understanding of grass 
roots solutions that are working or not working.
    Dixon Center is sponsored by Easter Seals that leads through highly 
interconnected and synergistic strategic and tactical approaches to 
advance a shared mission and vision. Dixon Center and Easter Seals 
jointly invest in and leverage their partnership for immediate and 
long-term mission impact benefiting servicemembers and Veterans, their 
families and the families of the fallen; and all those stakeholders, 
influencers, and decisionmakers that have a role in supporting the 
military and Easter Seals is a leading provider of services to 
individuals with disabilities and other special needs and their 
families, providing high-quality direct services and supports through a 
national network of community-based facilities that leverage and 
enhance local delivery systems and truly make a positive difference in 
the lives of Veterans and their families. The two organizations are 
integrated and collaborative, yet also distinct and intentionally 
independent to best achieve optimal results. The partnership has proven 
to be effective and complimentary as Dixon Center focuses on improving 
the delivery to services while Easter Seals specializes in the delivery 
of services to veterans and military families. However, I want to 
emphasize that my testimony here today reflects my views and those of 
Dixon Center alone.
    Dixon Center, and the communities and organizations we work with, 
recognizes that no single agency or organization has the manpower, 
resources or intellectual capital to fully assist our veterans and 
military families. The Center has provided leadership, advice, training 
and recommendations to help communities develop linkages and coordinate 
or consolidate services so that veterans and military families have 
easier, more effective access to community resources and supports. Each 
community must undertake its own planning process and develop its own 
coordination and consolidation models. However, we have found common 
elements in successful communities. They include: starting Veterans 
Treatment Courts; building veteran and military family awareness 
initiatives; providing affordable housing; increasing access to legal 
services; expanding veteran job training partnerships with businesses; 
organizing student veteran coordinators at colleges and universities; 
and developing veteran community action teams.
    However, the most important first steps a community should carry 
out are to:

    1. Engage in Community Asset Mapping. Without coordination and 
consolidation of resources and service delivery, communities and its 
military and veterans' organizations are simply creating another maze 
of bureaucracy and confusion for the veterans to ignore and feel 
another level of disconnection. Each community must undergo the hard 
work of identifying all of the community resources, organizations and 
programs aimed at helping veterans and military families to create a 
single community profile and to foster linkages and potential 
consolidation of existing community assets. To assist communities in 
this process, Points of Light, an international nonprofit founded by 
President George H.W. Bush, hosts The Community Blueprint, a set of 
tools and practices that provides communities with the framework and 
process for consolidating and coordinating local efforts to produce 
positive, measurable outcomes for veterans, military members and their 
families.
    2. Develop and Promote Community Rally Points. In combat, a rally 
point is a key, recognizable location to fall back on should an 
operational mission be disrupted or threatened. Each community should 
identify a specific, physical location that enables a veteran to access 
information and assistance on issues pertaining to health care, 
employment, education, housing, financial and legal problems, and 
strategies for accessing VA services.
Policy Recommendation:
    Congress should, through both authorization and appropriations 
language, direct the U.S. Department of Veterans Affairs to fund 
Community Asset Mapping and Community Rally Points within new authority 
and funding or as part of existing VA-community grant programs.
           promote va-community partnerships through policies
    A 2012 report (Well After Service: Veteran Reintegration and 
American Communities) argued that Federal agencies have ``insufficient 
reach into the communities from which veterans come and to which they 
return'' and recommended a comprehensive reintegration strategy focused 
on veterans wellness that leverages the reach and resources of 
community-based organizations. Hundreds of communities and thousands of 
community-based organizations are prepared to assist the VA as it 
supports the 22 million living veterans and the one million additional 
men and women expected to transition to civilian life over the next 
five years. Public-private partnerships can be powerful. However, VA 
policy and procedures make it difficult for qualified new and well-
established community organizations to partner with the VA to assist in 
this daunting service and capacity challenge.
    Through executive order, statute and its own initiatives (i.e.: NGO 
Gateway), the VA has recognized the need to work with community-based 
partners to complement and expand their services, particularly in parts 
of the country where the VA does not have a physical presence. In 
addition, Congress has taken significant action recently to help foster 
public-private partnership at the VA through the creation of grant 
programs (i.e.: Supportive Services for Veterans Families) or pilot 
programs to ensure veterans and military families have timely access to 
local and effective services. However, the process to partner with the 
VA on the local and national level is confusing, inconsistent, 
bureaucratic, ineffective and frustrating. For example, certain program 
opportunities are coordinated and decided at the headquarter level 
while others are seemingly available through the regional or local 
center. There is no uniform way for organizations to partner with the 
VA or guidance to effectively communicate with decisionmakers. In 
addition, certain opportunities are closed to select business or 
organizational criteria. While I understand and fully support priority 
preference to promote the use of veteran-owned and service-disabled 
veteran-owned businesses, most veteran organizations are led by or 
operated by U.S. veterans and should, at the very least, have an 
opportunity to compete for those programs or contracts. Finally, the VA 
must expand its current community partnership agenda, which mostly 
includes holding semi-regular NGO/nonprofit meetings and signing 
memorandum of understandings, to include meaningful partnerships that 
include financially reimbursing organizations for the quality, 
effective services the VA expects of these organizations.
Policy Recommendations:
    <bullet> Congress should expand public-private partnerships by 
developing new programs or new requirements within existing programs 
that direct the VA and other Federal agencies to partner with and 
provide access by community-based organization, including qualified new 
and well-established nonprofit or nongovernmental organizations 
(NGO's), to leverage existing community infrastructure.
    <bullet> Congress should require that the VA establish annual prime 
and subcontracting goals specific for NGO's and nonprofits to promote 
community partnerships.
    <bullet> Congress should direct the VA to establish a preferred 
community partner list of fully vetted organizations for each of its 
service lines so that, in cases of emergency or service capacity 
limitations, the VA can easily refer program eligible veterans to 
qualified community organizations for services without delay and 
bureaucratic red tape.
                               conclusion
    America's veterans are not receiving the compassionate outreach, 
care and services they need to transition successfully from military to 
civilian life. This is not for lack of interest or desire from 
America's communities or local organizations. I have seen community 
after community and organization after organization stand up to help 
take on this great responsibility. Congress must do everything it can 
to ensure that Federal agencies make decisions in the best interest of 
veterans, military servicemembers, their families and the families of 
the fallen and not what is in the best interest of their own agency and 
their program and service turf. In addition, Congress should expect the 
VA and other Federal agencies to develop structured community outreach 
plans and report on meaningful partnerships that have developed as a 
result of their plans.

    Mr. Chairman, I was pleased you gave today's hearing and its theme 
of partnership with the community some urgency by referencing it as a 
``Call to Action.'' The brave men and women who have fought for our 
country deserve nothing less than effective and immediate action. 
Through Dixon Center, we are stepping up community activity and action 
through corporate and foundation gifts to facilitate services to 
veterans and military families living in Indiana (Indianapolis), 
Maryland, Minnesota (St. Cloud), New Jersey, New York (Syracuse), Ohio 
(Cincinnati), Oregon (Salem), and Virginia. I pledge to continue this 
collaborative work in states and communities across the United States. 
I also urge this Committee to continue its leadership in this area and 
compel the VA and other Federal agencies to expand meaningful 
community-based outreach and partnerships to ensure veterans and 
returning servicemembers, like Mervin Roxas, get the assistance they 
need during transition to thrive and grow in their communities. Thank 
you for the opportunity to share with you my update.
                                 ______
                                 
 Prepared Statement of Matthew E. Melmed, Executive Director, Zero To 
       Three: National Center for Infants, Toddlers, and Families


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                  <all>

</pre></body></html>
